<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:35 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Domenici, Byrd, and Inouye.

                    DEPARTMENT OF HOMELAND SECURITY

                   Science and Technology Directorate

STATEMENT OF DR. CHARLES McQUEARY, UNDER SECRETARY
    Senator Cochran. The hearing will please come to order.
    Today we continue our review of the fiscal year 2004 budget 
request for the Department of Homeland Security. We will 
consider at this hearing the programs and activities under the 
Department's Science and Technology Directorate.
    I am pleased to welcome the Under Secretary for Science and 
Technology, Dr. Charles E. McQueary.
    The Science and Technology Directorate is one of four 
directorates that makeup the Department of Homeland Security. 
The Homeland Security Act of 2002 transferred certain research 
and development functions of the Department of Defense, the 
Department of Energy, and the Department of Agriculture to the 
Department of Homeland Security. These functions and activities 
that have been transferred are now under the jurisdiction of 
the Science and Technology Directorate.
    For fiscal year 2004, the President's budget requests $803 
million for activities of this directorate.
    Mr. Secretary, thank you very much for submitting a 
prepared statement to the committee which we will print in full 
in the committee's hearing record. We invite you to make any 
statement and explanation of the budget request which you think 
would be helpful to the committee as we review the request for 
appropriations.
    I am pleased now to yield to my friend from West Virginia, 
the distinguished Senator from West Virginia, Mr. Byrd for any 
statement he might have.
    Senator Byrd. I do not have any opening statement. I will 
just reserve my time for questions. Thank you.
    Senator Cochran. Thank you. Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman. I just 
wanted to come by and congratulate and welcome our new under 
secretary. May I request that questions be submitted?
    Senator Cochran. Without objection, it is so ordered.
    They will be submitted. Mr. Secretary, we hope you will be 
able to respond to those questions within a reasonable time.
    Senator Inouye. May I be permitted to leave? I have got 
some conference matters.

                           PREPARED STATEMENT

    Senator Cochran. Of course, best wishes to you. I also ask 
that a statement submitted by Senator Craig be submitted in the 
record.
    [The statement follows:]

               Prepared Statement of Senator Larry Craig

    I appreciated meeting with Dr. McQueary prior to his confirmation, 
to discuss use of Department of Energy national laboratories to 
implement the research agenda of the Department of Homeland Security. 
Prior to the creation of the Homeland Security Department, the national 
laboratories of the Department of Energy were already investigating 
many of these security challenges related to critical infrastructure 
protection, detection of dirty bombs, cybersecurity and sensors to 
detect chemical and nuclear materials. In my view, the Department of 
Homeland Security, through its Directorate for Science and Technology, 
should continue and expand this important work but it should not re-
invent the wheel. In addition to saving money, using the Department of 
Energy national labs for this research will also serve the purpose of 
deploying these technologies into the field, and enabling them to 
protect us, sooner rather than later.

    Senator Cochran. Mr. Secretary, you may proceed.

                   STATEMENT OF DR. CHARLES MCQUEARY

    Mr. McQueary. Thank you, sir.
    Good afternoon Chairman Cochran, Senator Byrd, and Senator 
Inouye also, even though he has had to leave.
    It is a pleasure for me to be here with you today to 
discuss the President's fiscal year 2004 budget request for the 
Department of Homeland Security's Science and Technology 
Directorate. Secretary Ridge has already testified and provided 
the Department's overall fiscal year 2004 budget request and 
the role expected of Science and Technology to make the Nation 
safer.
    It is a great honor and a great responsibility to lead the 
science and technology efforts of this Directorate and the 
Department to meet the challenges of protecting our homeland 
and our way of life.
    The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting edge technologies 
and new capabilities so that the dedicated men and women who 
serve to secure our homeland can perform their jobs more 
effectively and efficiently and indeed, those men and women are 
my customers.

                  FISCAL YEAR 2004 PLANS AND MISSIONS

    Our plans for fiscal year 2004 reflect this relationship 
and our desire to provide capability to the field as rapidly as 
possible.
    Our mission is to conduct, stimulate, and enable research 
and development, test and evaluation, and timely transition of 
homeland security capabilities to Federal, State and local 
operational end users.
    The Information and Analysis Infrastructure Protection 
Directorate is supported by Science and Technology through our 
Threat and Vulnerability, Testing and Assessment and Critical 
Infrastructure Portfolios. In addition, the Science and 
Technology Directorate will support the mission needs of the 
Border and Transportation Security Directorate, the United 
States Coast Guard, the United States Secret Service, and the 
Emergency Preparedness and Response Directorate through 
coordinated and focused research and development programs.
    Throughout the initial planning process for the Science and 
Technology Directorate we were guided by current and future 
threat assessments, our current capability to respond to that 
threat, and by the priorities spelled out in the President's 
National Strategy for Homeland Security.

                SCIENCE AND TECHNOLOGY DIRECTORATE GOALS

    Our goals are several and they are: develop and deploy 
state-of-the-art high-performance, low operating cost systems 
to prevent the illicit traffic of radiological and nuclear 
materials and weapons into the United States; provide state-of-
the-art high-performance, low operating cost systems to rapidly 
detect and mitigate the consequences of the release of 
biological and chemical agents; provide state-of-the-art high-
performance, low operating cost systems to detect and prevent 
illicit high explosives transit into and within the United 
States; enhance missions of the Department's operational units 
through targeted research, development, test and evaluation and 
systems engineering and development; develop and provide 
capabilities for protecting cyber and other critical 
infrastructures; develop capabilities to prevent technology 
surprise by anticipating emerging threats; and finally, 
develop, coordinate, and implement technical standards for 
chemical, biological, radiological, and nuclear (CBRN) 
countermeasures.
    The threats to our homeland are many. We must constantly 
test and assess our threats and vulnerabilities, develop new or 
improved capabilities to counter these threats, and mitigate 
their effects should an attack occur. Our program must also 
enhance the missions of the Department to protect and provide 
assistance to civilians in response to natural disasters, law-
enforcement needs, and other activities. We will develop close 
partnerships with private industry, academia and government 
agencies to focus a national research and development effort 
aimed at protecting the homeland. We are requesting $803 
million in fiscal year 2004 to conduct our mission. We will 
implement our activities through focused portfolios that 
support our mission. These portfolios are Biological 
Countermeasures; Chemical and High Explosives Countermeasures; 
Radiological and Nuclear Countermeasures; Critical 
Infrastructure Protection; Threat and Vulnerability Testing and 
Assessment; and the standards State and local program.

          HOMELAND SECURITY ADVANCED RESEARCH PROJECTS AGENCY

    Through the Homeland Security Advanced Research Projects 
Agency, our program will explore cutting-edge approaches to 
assessing current and emerging threats. It is our estimate that 
at least $350 million of the overall request will be carried 
out by HSARPA in fiscal year 2004. Our strategy includes 
evaluation, prototyping and rapid deployment of available 
technologies to the field. To do this, we will establish a 
technology clearinghouse in partnership with the Technical 
Support Working Group which has performed a similar mission for 
the past several years with great success for the Departments 
of State and Defense. Through this partnership we will 
encourage and support innovative solutions to enhance homeland 
security and will engage the private sector in rapid 
prototyping of homeland security technologies.

                          EDUCATIONAL PROGRAMS

    A knowledgeable workforce focused on homeland security is 
essential to our ability to address advancements in science and 
technology. Declining enrollments in specific academic fields 
such as radiochemistry is leading to a lack of workers in areas 
of science and technology which is important to America's 
effort to protect the homeland. Thus, we will establish 
fellowship programs at the graduate and post-graduate levels to 
encourage research activities in these areas and thus develop 
the foundation America needs to sustain our technical advantage 
in the war against terrorism. We will also establish University 
Centers of Excellence to provide an enduring and focused 
resource to the Nation in this effort.

                           PREPARED STATEMENT

    Mr. Chairman, I thank you again for the opportunity to 
appear before the Subcommittee. This concludes my prepared 
statement and I do thank you for including my more lengthy 
remarks in the record.
    [The statement follows:]

                 Prepared Statement of Charles McQueary

Introduction
    Good afternoon. Chairman Cochran, Senator Byrd, and distinguished 
members of the subcommittee, it is a pleasure to be with you today to 
discuss the President's fiscal year 2004 budget request for the 
Department of Homeland Security's Science and Technology Directorate. 
Secretary Ridge has already testified and provided the Department's 
overall fiscal year 2004 budget request and the role expected of 
science and technology to make the nation safer. It is a great honor 
and a great responsibility to lead the science and technology efforts 
of this Directorate and the Department to meet the challenges of 
protecting our homeland and our way of life.
    The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting edge technologies and new 
capabilities, so that the dedicated men and women who serve to secure 
our homeland can perform their jobs more effectively and efficiently--
they are my customers. Our plans for fiscal year 2004 reflect this 
relationship, and our desire to provide capability to the field as 
rapidly as is possible.
    The threats to our homeland are many. We must constantly monitor 
these threats and assess our vulnerabilities to them; develop new or 
improved capabilities to counter chemical, biological, radiological, 
nuclear, explosive, and cyber threats; and mitigate the effects of 
terrorists attacks should they occur. The Science and Technology 
Directorate's program must also enhance the conventional missions of 
the Department to protect and provide assistance to civilians in 
response to natural disasters, law enforcement needs, and other 
activities.
    Throughout the initial planning process for the S&T Directorate we 
have been guided by current threat assessments, our understanding of 
capabilities that exist today or that can be expected to appear in the 
near term, and, importantly, by the priorities spelled out in the 
President's National Strategy for Homeland Security.
    Thus, our key specific areas of emphasis are to:
  --Develop and deploy state-of-the art, high-performance, low-
        operating-cost systems to prevent the illicit traffic of 
        radiological/nuclear materials and weapons into and within the 
        United States.
  --Provide state-of-the art, high-performance, low-operating-cost 
        systems to rapidly detect and mitigate the consequences of the 
        release of biological and chemical agents.
  --Provide state-of-the art, high-performance, low-operating-cost 
        systems to detect and prevent illicit high explosives transit 
        into and within the United States.
  --Enhance missions of all Department operational units through 
        targeted research, development, test and evaluation (RDT&E), 
        and systems engineering and development.
  --Develop and provide capabilities for protecting cyber and other 
        critical infrastructures.
  --Develop capabilities to prevent technology surprise by anticipating 
        emerging threats.
  --Develop, coordinate and implement technical standards for chemical, 
        biological, radiological, and nuclear (CBRN) countermeasures.

Research, Development, Test and Evaluation Portfolio
    We are requesting $803 million in fiscal year 2004 to provide 
applied research, development, demonstrations, and testing of products 
and systems that address these key areas of emphasis. The Science and 
Technology Directorate will implement its activities through focused 
portfolios that address biological, chemical, radiological and nuclear, 
and cyber threats; support the research and development needs of the 
operational units of the Department; and receive innovative input from 
private industry and academia as well as national and Federal 
laboratories. In particular, the Homeland Security Advanced Research 
Projects Agency (HSARPA) will have an essential role in meeting the 
goals and objectives of the Department and the Directorate across the 
range of the portfolios. These portfolios and activities are described 
as follows:
    Biological Countermeasures.--Biological threats come in many forms. 
They can be toxins, viruses, or bacteria, distributed by airborne 
aerosols, or in food or water supplies, or in the case of contagious 
diseases, spread among infected people or animals. Some biological 
threats require considerable technical sophistication on the part of 
the adversary and others do not. Timely detection and early initiation 
of prophylaxis and decontamination is the key to mitigating the 
consequences of any biological attack, should it occur. We are 
requesting $365 million in fiscal year 2004 to:
    Develop and deploy a Biological Warning and Incident 
Characterization System (BWIC). BWIC will consist of two major 
elements: a nationwide biosurveillance system that looks for early 
indicators of the exposure of people, animals and plants to biological 
agents; and environmental monitoring networks in selected cities that 
can detect the agent directly. This activity will be available as a 
pilot in fiscal year 2004.
    Continue the National Biodefense Analysis and Countermeasures 
Center (NBACC), initiated in fiscal year 2003, as a key component in 
implementing the President's National Strategy for Homeland Security. 
The NBACC will leverage the expertise of America's cutting-edge medical 
and biotechnical infrastructure to focus on the biological agent 
threat, including performing risk assessments and determining which 
countermeasures require priority research and development. It is an 
essential, new approach to integrating national resources for homeland 
security, supporting public health, law enforcement, and national 
security. The analytical capabilities of the NBACC will be functional 
in fiscal year 2004.
    Protect our agricultural infrastructure by providing the most rapid 
means of detecting infected animals before they exhibit signs of the 
disease to contain the original introduction, providing vaccines and/or 
therapeutics and a vaccination/therapy program to deter the spread of 
the disease, and providing genetic data that can be quickly used to 
identify the source, virulence and potential for spread of an 
introduced foreign disease.
    Chemical Countermeasures.--According to the National Research 
Council's Report Making the Nation Safer, ``chemicals continue to be 
the weapon of choice for terrorist attacks. They are readily available 
and have the potential to inflict significant casualties.'' In fact, 
terrorist attacks on civilian populations with chemical warfare agents 
have already occurred. In the Aum Shrinrikyo attack on the Tokyo 
subway, casualties were limited only because the attackers did not use 
an effective agent dispersal method. Similarly, accidental releases of 
toxic industrial chemicals have demonstrated that materials relatively 
widely available in modern industrial societies can result in large 
number of casualties.
    Significant work on chemical defense in military situations has 
been conducted, focused on battlefield attacks using chemical warfare 
agents. However, major gaps exist regarding civilian defense, most 
notably in strategies for dealing with the broader spectrum of threats 
(e.g. toxic industrial materials); detection systems capable of 
continuous monitoring with very low false positive rates; deployed 
chemical defense systems; and a robust forensic capability. The 
Chemical Countermeasures portfolio is requesting $55 million to address 
these shortcomings through a balanced mix of activities: (1) systems 
studies will be used to prioritize efforts amongst the many possible 
chemical threats and targets; (2) new detection and forensic 
technologies will be developed and demonstrated; (3) protective systems 
that integrate physical security, ultra-sensitive detection, 
information management, and consequence management strategies will be 
developed and piloted in selected high value facilities such as 
airports and subways; and (4) the Science and Technology Directorate 
will work with the Information Analysis and Infrastructure Protection 
Directorate to characterize and reduce the vulnerability posed by the 
large volumes of toxic industrial materials in use, storage or 
transport within this Nation.
    High Explosives.--Detection of high explosives and mitigation of 
their use has been a prime focus, historically of the Federal Aviation 
Administration, and now the Transportation Security Administration 
(TSA). The current terrorist threat extends beyond air transport to all 
other modes of transportation and to fixed facilities. The Department 
of Homeland Security will build on TSA's R&D in this area to develop 
and deploy more effective explosives detectors that can address the 
broader threats. Development of reliable stand-off detection capability 
of large quantities of explosives, especially in vehicles, is 
particularly needed. For this purpose $10 million in fiscal year 2004 
is requested.
    Radiological and Nuclear Countermeasures.--Countering the threat of 
radiological or nuclear attack is one of the top priorities of the 
Department of Homeland Security and the Science and Technology 
Directorate. The Radiological and Nuclear Countermeasures portfolio is 
requesting $137 million to address this threat through a comprehensive 
systems approach that emphasizes early detection; effective 
intervention capabilities at the Federal, State and local levels; 
development of mitigation technologies and science-based consequence 
management programs for use should an attack occur; and effective 
training at all levels of response. Concurrent efforts focused on 
deployment, evaluation and improvements to currently available 
technologies; a research and development program for advanced 
technologies and their continuous insertion into operational use; and 
the provision for an enduring science and technology base to address 
long-term challenges such as the detection of highly-enriched uranium 
and heavily shielded radioactive sources is used to address both 
today's threats and those of the future.
    Threat and Vulnerability, Testing and Assessment.--The purpose of 
the Threat and Vulnerability, Testing and Assessment (TVTA) program is 
to create advanced modeling, information and analysis capabilities that 
can be used by the organizations in the Department to fulfill their 
missions and objectives. One thrust of this program is to develop 
advanced computing, information, and assessment capabilities in support 
of threat and vulnerability analysis, detection, prevention and 
response. This portfolio also conducts extensive research and 
development activities in the area of cybersecurity, addressing areas 
not currently addressed elsewhere in the Federal Government. An example 
of this is developing tools and techniques for assessing and detecting 
the insider threat. The TVTA program uses a strategy of multi-year 
investments that infuse new capabilities into the DHS mission 
directorates on a regular basis based on strategic 5 year road maps. A 
spiral development process ensures early use and feedback by intended 
users and operators of all technologies developed within the program. 
Successively more complete and refined prototypes lead to operational 
pilots and fully operational systems for the Department organizations. 
$90 million is requested in fiscal year 2004 to support this activity.
    Critical Infrastructure Protection.--Our national infrastructure 
provides the continual flow of goods and services that are essential to 
the defense and economic security of the United States. Many of these 
functions are so vital that major disruptions would cause severe 
consequences to the behavior and activities of our citizens. Our free 
society and the high quality of life that we value depend upon the 
reliable operation of the infrastructure. In addition, we must protect 
the lives of our citizens (especially whenever they gather in large 
numbers) and key assets including many national monuments and icons.
    The Critical Infrastructure Protection (CIP) portfolio has three 
primary goals: (1) develop, implement, and evolve a rational approach 
for prioritizing CIP strategies and resource allocations using 
modeling, simulation, and analyses to assess vulnerabilities, 
consequences, and risks; (2) propose and evaluate protection, 
mitigation, response, and recovery strategies and options; and (3) 
provide real-time support to decision makers during crises and 
emergencies. $5 million is requested in fiscal year 2004 for this 
activity, which also leverages work being done elsewhere in the Federal 
Government and the Department of Homeland Security.
    Standards/State and Local Program.--Standards should be applied to 
all elements of the homeland security infrastructure to ensure a robust 
capability to defend against and to respond to any crisis situation--
whether it is the result of terrorism, natural causes, or a 
catastrophic accident. Organizing and integrating the efforts of the 
government and the private sector will enable the Department of 
Homeland Security to develop standards for equipment used for detection 
of materials that could be used in a terrorist attack. This will reduce 
the probability of a successful terrorist attack on the United States 
and facilitate development of a vital and enduring ability to respond 
to national emergencies.
    The Standards/State & Local Program will provide consistent and 
verifiable measures of effectiveness of homeland security related 
equipment and systems in terms of basic functionality, appropriateness 
and adequacy for the task, interoperability, efficiency, and 
sustainability. The Science and Technology Directorate will facilitate 
the development of guidelines in conjunction with both users and 
developers. The guidelines will encompass user needs and operating 
conditions, as well as the capabilities and the limitations of the 
technologies. The Standards/State and Local Program will develop, in 
collaboration with operational end-users, performance measures, testing 
protocols, certification methods, and a reassessment process 
appropriate to each threat countermeasure and for the integrated 
system. The Standards/State and Local Program will address all elements 
of the homeland security mission including equipment, information, 
analyses, personnel, and systems. Special emphasis will be placed on 
soliciting input from the actual users in the State and local response 
communities, and on providing effective methods for communicating 
information back to these agencies.
    Major program objectives include working with the private sector to 
establish a network of homeland security certification laboratories. 
This will provide a consistent level of assurance in the effectiveness 
of detection and other operational equipment. Consistent standards for 
training and certification of personnel will also be developed. The 
program will continue to broaden the suite of technical standards for 
various forms of equipment and systems and will provide protocols and 
standard data collection formats for test and evaluation projects 
undertaken by the Science and Technology Directorate. $25 million is 
requested in fiscal year 2004 to support this important effort.
    Support to Department of Homeland Security Components.--The Science 
and Technology Directorate has the responsibility to provide Federal, 
State and local operational end-users with the technology and 
capabilities to protect the United States homeland from catastrophic 
terrorist attacks and enhance their capabilities for conducting their 
conventional missions. An essential component of this responsibility is 
to coordinate and collaborate with the other components of the 
Department to assist and enhance their technical capabilities through 
integrated research and development activities. The integration of the 
Science and Technology Directorate research and development efforts 
with the Information Analysis and Infrastructure Protection Directorate 
is specifically described in the Threat and Vulnerability, Testing and 
Assessment, and the Critical Infrastructure Protection portfolios. In 
addition, the Science and Technology Directorate will support the 
mission needs of the Border and Transportation Security Directorate, 
the United States Coast Guard, the United States Secret Service and the 
Emergency Preparedness and Response Directorate through coordinated and 
focused research and development programs. Research and development in 
potentially high payoff technologies will be emphasized. $55 million is 
requested in fiscal year 2004 for this purpose.
    Rapid Prototyping Program.--Significant capabilities exist in 
private industry for the rapid development and prototyping of 
technologies in support of the homeland security mission. A mechanism 
to quickly and easily access the capabilities of private industry will 
allow the Department of Homeland Security to more effectively fulfill 
its mission requirements.
    The Science and Technology Directorate will establish a partnership 
with the Technical Support Working Group (TSWG) to provide the 
Department with a technology clearinghouse to encourage and support 
innovative solutions to enhance homeland security and to engage the 
private sector in rapid prototyping of homeland security technologies. 
$30 million is requested in fiscal year 2004 to solicit from the 
private sector near-term capability that can be rapidly prototyped and 
fielded.
    Homeland Security Fellowship Programs/University Programs.--
Advancements in science and technology have the potential to change or 
increase the threats to our security; these advancements also improve 
our ability to thwart these emerging threats. A knowledgeable workforce 
focused on homeland security is essential to our ability to address 
advancements in science and technology.
    The vast scope of the science and technology needed to address 
homeland security coupled with declining enrollments in specific areas 
such as nuclear science and technology, and radiochemistry are leading 
to a lack of qualified applicants for relevant research and 
development. This program requests $10 million to support strategic 
partnerships with the academic community to provide support for 
qualified students and faculty.
    Emerging Threats.--Advancements in science and technology have the 
potential to change or increase the threats to our security. These 
advancements also improve our ability to thwart these emerging threats.
    The Emerging Threats program will support the exploration of 
innovative, cross-cutting, out-of-the box approaches for anticipating 
and responding to new and emerging threats. It will also establish and 
support studies and analyses to be conducted by the new Homeland 
Security Institute. $22 million is requested in fiscal year 2004 for 
this purpose.
    The scope of the work to be conducted by this budget is broad but 
focused on the areas that improve our capabilities to thwart terrorist 
attacks by early detection and identification of the threat, effective 
protection and intervention technologies, mitigation of potential 
consequences should an attack occur, and a robust forensics and 
attribution capability. Our strategy includes early deployment of off-
the-shelf technologies to provide initial defensive capability and 
near-term utilization of emerging technologies to counter today's 
terrorist threats and the development of new capabilities to thwart 
future and emerging threats. A key part of our efforts will be 
conducted through the Homeland Security Advanced Research Projects 
Agency to engage industry, academia, government, and other sectors in 
innovative research and development to meet operational needs. Although 
I have described the budget request along product lines, such as 
biological and chemical countermeasures, it is our estimate that at 
least $350 million of the overall request will be carried out by HSARPA 
in fiscal year 2004.
    Mr. Chairman and members of the subcommittee, this concludes my 
prepared statement. I would be pleased to address any questions.

               COOPERATION WITH DHS AND NON-DHS ENTITIES

    Senator Cochran. Thank you very much, Mr. Secretary.
    While there were certain specific functions transferred to 
the Department of Homeland Security over which you now have 
jurisdiction or responsibility, there were some that were left 
out that are under the overall Department's responsibility, 
such as the Coast Guard, the Secret Service and others.
    Does that present any kind of challenge administratively 
for you, or do you share in the responsibility for working on 
science and technology issues with those other parts of the 
Department of Homeland Security, even though they are not 
directly under your jurisdiction?
    Mr. McQueary. Yes, sir, we do share in that responsibility. 
In fact, as a part of our organization with in Science and 
Technology, we have individuals who have transferred into the 
S&T organization from all of those agencies that you mentioned, 
to be in our spaces, if you will, to help influence the Science 
and Technology portfolio direction that we will take.
    So while the organizations that you mentioned do not report 
directly to me, we do have oversight responsibility for the 
science and technology work done in those organizations. We 
have also already established a partnership with the laboratory 
directors from all of those agencies that you mentioned so that 
we can begin working closely with them. And so far I have been 
very pleased to see the great enthusiasm with which the leaders 
of the scientific organizations have come together, recognizing 
that there is more power in a larger scientific community than 
there is in what I would call smaller groups.
    Senator Cochran. There are other Federal agencies, too, and 
activities of the Federal Government not within the Department 
of Homeland Security that have responsibilities for helping to 
protect our homeland against terrorist attacks. I think 
immediately of the Postal Service and the challenge that they 
have in trying to help ensure that we are able to detect any 
efforts to transmit through the mail anthrax and other harmful 
agents.
    To what extent will your office be involved in providing 
information, in terms of science and technology, to those other 
independent agencies or other departments of Government such as 
the U.S. Postal Service?
    Mr. McQueary. First of all, it is very important that one 
of the first things that we do is understand exactly what is 
going on not only within the government but also in private 
industry and universities in the areas that relate to homeland 
security.
    In the specific instance of the Post Office, the Office of 
Science and Technology Policy has been working with the Post 
Office since we had the anthrax issue right after 9/11. I have 
already established a very close relationship with Dr. John 
Marberger, who heads up the OSTP organization. So we will have 
very close coordination with the work that is being done there. 
If we need to have working groups with the Post Office, I would 
see no reason why there should be an impediment to doing so.

             ROLE OF THE PLUM ISLAND ANIMAL DISEASE CENTER

    Senator Cochran. If a terrorist decided to target American 
farms and ranches with some effort to carry out a bioterrorism 
act, we are limited in what we know about how diseases can be 
transmitted and spread. But we are trying, through the 
activities of the Plum Island Animal Disease Center which is 
now part of the Department of Homeland Security, to understand 
how to better fight efforts that would target America's farms 
and ranches.
    To what extent is your Directorate going to be involved in 
helping to map a strategy to effectively quarantine animals or 
to prevent the spread of diseases in this kind of situation?
    Mr. McQueary. Certainly. As you correctly point out, Plum 
Island does transfer into the Department of Homeland Security. 
That occurs on the first of June.
    We had interactions as the planning process was going 
through. I have not personally been to Plum Island yet, 
although that is high on my list of things to be done within 
the next several days, to get more familiar with Plum Island 
and the details thereof.
    As I see it, though, they play a very important function, 
particularly in helping to protect our country from animal 
diseases that could come in inadvertently. And therefore by 
doing this, they also put us in a better position to understand 
how to protect against those diseases.

              CRITERIA FOR DETERMINING CENTERS EXCELLENCE

    Senator Cochran. I know that there are probably going to be 
a lot of requests from around the country from colleges and 
universities to ask you to designate them as ``Centers of 
Excellence'' in research in this area. How are you going to 
approach that challenge? How are you going to pick and choose 
among all the colleges and universities as to who gets to be a 
center?
    Mr. McQueary. Well, first of all, I am pleased with the 
legislation as it came out in giving us the latitude to be able 
to work that issue. There are a number of criteria that are 
called out in the legislation establishing the Department of 
Homeland Security, and certainly that will be an important part 
of what we need to examine as we decide what to do.
    My opinion, if I might render a professional opinion at 
this point, is that it would be very difficult to find a single 
university that has the breadth and expertise so that they 
could call themselves the very best there is in the country in 
all of the expected areas. So my personal preference is to do 
an early assessment of where the best work is being done in the 
areas of counterterrorism interest, and then choose centers of 
excellence based upon that judgment.
    And I would certainly expect that we will call upon the 
scientific community to help us render that judgment. That will 
not be strictly a Department of Homeland Security S&T call by 
itself.
    Senator Cochran. Senator Byrd.

           ADEQUACY OF EXISTING TECHNOLOGIES AND CAPABILITIES

    Senator Byrd. Mr. Secretary, the Homeland Security Act 
gives you the responsibility to develop a national policy and 
strategic plan for identifying priorities, goals, objectives, 
and policies for and coordinating the Federal Government 
civilian efforts to identify and develop countermeasures to 
chemical, biological, radiological, nuclear and other emerging 
terrorist threats.
    In recent testimony, FBI Director Robert Mueller said his 
greatest concern is that our enemies are trying to acquire 
dangerous new capabilities with which to harm Americans. 
Terrorists worldwide have ready access to information on 
chemical, biological, radiological, and nuclear weapons via the 
Internet.
    Mr. Secretary, our agencies have identified new and 
existing technological capabilities that can be used today to 
help prevent terrorism, but they have not received the budgets 
to obtain them. Do you think that our agencies are adequately 
equipped and prepared with existing technologies and 
capabilities?
    Mr. McQueary. Sir, I believe the reason the Science and 
Technology Directorate was created as a part of the Department 
of Homeland Security was to help improve the overall situation 
at our borders and provide added protection. So I think the 
answer has to be that the country has decided we are not 
adequately protected and we still have work to be done. And I 
believe that we are chartered with the responsibility of 
leading that effort in concert with the other units that make 
up the Homeland Security Department, deciding what needs to be 
done and doing it.
    I do believe that it is very important that we understand 
quickly what kinds of capabilities exist in the country today, 
so that we can implement those things that will make a 
difference as quickly as we can because speed is important in 
the business that we are in.

             IDENTIFICATION OF SCIENCE AND TECHNOLOGY NEEDS

    Senator Byrd. Last year Congress appropriated additional 
funds to purchase technology and equipment critical to homeland 
security but the Administration rejected the funding. This 
year, as we continue to operate under a heightened state of 
alert, the Administration did not request specific funding for 
this technology in the supplemental spending bill.
    I speak with respect to technology that has been identified 
by the agencies, such as radiation portable monitors and non-
intrusive inspection equipment for the Bureau of Customs and 
Border Protection and radiation pagers and isotope identifiers 
for Coast Guard officers who board suspect vessels. There were 
attempts to add funding to the emergency supplemental a few 
days ago that would have provided Homeland Security agencies 
with additional technologies and capabilities.
    Secretary Ridge and the Attorney General have said that 
there was a high-risk of a terrorist attack right now. Are you 
working with the various Homeland Security agencies to identify 
existing technologies and capabilities that could immediately 
be deployed to the men and women securing our homeland?
    Mr. McQueary. Yes, sir, that is a significant 
responsibility that we have. And indeed, the role that we play 
in the Department of Homeland Security is to be the supplier of 
technologies to the other agencies and units that make up the 
Department of Homeland Security.
    I have described this as a customer/supplier model, if you 
will, having come from the industrial side of things, in which 
they are the customers, as are the people working on the front 
lines. And we are to be the suppliers of the technologies that 
are needed. And our job is to help evaluate, determine what 
should be done and help implement the rapid deployment of those 
things that are needed.
    Senator Byrd. Could you provide the subcommittee with some 
examples?
    Mr. McQueary. Examples of things that we are doing?
    Senator Byrd. Are you working with the various Homeland 
Security agencies to identify existing technologies and 
capabilities that could immediately be deployed to the men and 
women securing our homeland?
    Mr. McQueary. If I may, we have been in existence just 
since the first of March. We have a relatively small staff at 
this particular point. I take that fully as a responsibility 
that we have.
    I cannot tell you today specific examples other than there 
are radiological detectors at our borders even today and there 
are upgrades that are underway in many of those locations. But 
has Science and Technology affected those in any great way to 
date? The answer would be no, simply because we have not been 
in existence nor have we had people.
    If you would recall when Homeland Security was formed, 
there were no people that transferred into Science and 
Technology. So we are building our organization a person at a 
time today in order to be able to do the work and accomplish 
the responsibilities that the Congress has given us in the 
construction of the bill.
    Senator Byrd. Since the threat of terrorism is imminent, 
should you be focusing on both longer-term development of 
technologies and technologies that are currently available so 
that the Homeland Security personnel can work more efficiently 
and effectively?
    Mr. McQueary. Yes, sir. I believe that is very important 
that we have a multi-layered strategy in what we do. And in 
fact, that indeed is a part of our planning and strategic plan 
that we are working on, and that we expect to publish in the 
near future. Very important.
    If I may, the Homeland Security issue is a very large 
systems engineering problem if I may describe it coming from 
the background which I do, in which we have large numbers of 
inputs and outputs. And the important thing is to understand 
how this system needs to work to provide the protection.
    From that understanding will come the ability to be able to 
determine what we must do in terms of long-range developments, 
as well as to be able to use those things that we know already 
exist. And there are many companies that have things out there 
today, as certainly you alluded to, that maybe, that probably 
will be, very beneficial to us as we make this country safer 
than what it is today.

                            MANPAD STRATEGY

    Senator Byrd. There has been much talk about the need to 
secure our commercial airliners from the threat of shoulder-
fired surface-to-air missiles. Last November it was reported 
that Al Qaeda operators fired two shoulder-fired missiles at an 
Israeli passenger plane. The cost to purchase these weapons is 
roughly $5,000 to $30,000, and over 500,000 are available 
worldwide on the black market.
    Secretary Ridge announced on Tuesday that the Government 
should pay for research and technology to protect commercial 
airliners from this type of attack. Has the Secretary discussed 
this with you? And if he has, what steps are you taking to 
pursue this?
    Mr. McQueary. Yes, sir, he has discussed it with us a few 
weeks ago. We are aware of the MANPAD strategy you describe. It 
is a very serious issue and one in which we have already begun 
to participate in a systems engineering analysis to determine 
what would be an equitable approach for our private airline 
industry.
    There has been work. It has gone on in the Department of 
Defense, and certainly we would build upon that work. But there 
is not a system, as I understand it, that exists today that one 
could simply apply onto a commercial airliner with no 
additional development work.
    Senator Byrd. I want to yield shortly to the Chairman, who 
will in turn then call upon Senator Domenici, but let me get 
this further question, if I may.
    Your budget justification does not include anything 
specifically on this issue. TSA has requested $75 million in 
research and development to improve current security 
technology. Industry estimates that the cost to design and 
certify effective countermeasures for different aircraft types 
will cost close to $55 million. So can you tell me where the 
funding will come from to do this?
    Mr. McQueary. Sir, I cannot today. I can tell you that we 
have included within the budget the study work that would be 
necessary for Science and Technology to provide its technical 
judgment on how to approach this problem and that is not a 
large expense. In fact, I would estimate that is a $1 million 
to $2 million maximum kind of effort for us.
    Of course, the major cost would be in the procurement of 
such systems and I have not been engaged in the discussion 
about how that would be paid for.
    Senator Byrd. Thank you.
    Senator Cochran. Thank you very much, Senator. Senator 
Domenici.
    Senator Domenici. Mr. Chairman, I have to chair another 
subcommittee, as I think you are aware, but I very much 
appreciate the opportunity to ask one question.

                COLLABORATION WITH NATIONAL LABORATORIES

    First, Dr. McQueary, it is good to see you. You have a very 
big job and we look forward to working with you.
    As you know, in my State, we have two great national 
laboratories. And one of my subcommittees is the subcommittee 
that funds all of the national laboratories for the Department 
of Energy, some 18 laboratories from Argonne to ones in New 
York and up and down the line.
    Obviously, I am correct in saying you intend to work with 
those laboratories as they have either know-how or technology 
that would be helpful to you in implementing your role; is that 
correct?
    Mr. McQueary. Yes, sir, that is absolutely correct. They 
have great talent in those laboratories.

          HOMELAND SECURITY ADVANCED RESEARCH PROJECTS AGENCY

    Senator Domenici. Homeland Security Advanced Research 
Projects Agency is known as, I guess, HSARPA.
    Mr. McQueary. HSARPA, some call it. I wish I had been here 
sooner to name it something else, but I was not.
    Senator Domenici. We will try our best.
    As we understand it, the purpose for that is to use it as a 
tool to move ideas from the drafting board to the front lines 
as quickly as possible. And in so doing, to use your funds so 
that you can bring to bear all of the resources of the United 
States, including private industry, universities, and the 
national laboratories, on an issue or a need in this particular 
field; is that correct?
    Mr. McQueary. That is absolutely correct, sir.
    Senator Domenici. When do you think that that agency is 
going to be up and running?
    Mr. McQueary. I believe it will be up and running soon. We 
have done a lot of planning for it. It will actually be up and 
operational around the first of October simply because of the 
way the budgets are done.
    Senator Domenici. Who do you think will head it up?
    Mr. McQueary. I have interviewed many people and I am still 
looking for people to do that. I think it is essential that we 
get the right kind of technical talent to lead that. And 
therefore, I am continuing to look.
    Senator Domenici. Do you have any idea how many employees 
would be working there and where they might be located, Doctor?
    Mr. McQueary. We have not reached that point because that 
is an organization whose size will be driven largely by the 
number of programs that we have implemented, and so we will 
need program managers to run programs, and so the size will be 
driven by that.
    Senator Domenici. Once again, it is very important that the 
way you set it up will permit it to interact with the national 
laboratories in the best possible way; is that not correct?
    Mr. McQueary. That is absolutely correct.
    Senator Domenici. Without that, you are losing a great deal 
of talent and capacity that already exists. You do not have to 
duplicate that.
    Mr. McQueary. And we will not, or we will make every effort 
not to duplicate it, I can assure you.
    Senator Domenici. I have some additional questions with 
reference to how you are going to go about doing that, but I 
just wanted to leave you with the further admonition that just 
because we have a new problem, we do not have to, in each 
instance invent a new agency or a new institution to solve it.
    You have a very big job. Part of it is to make things work 
and pull things together that are already out there and apply 
them to an existing problem. And I am hopeful that in the 
months to come, as we bring you here, you will be able to show 
us how you have arranged this so that the great strength of our 
private sector research and our laboratories is brought to bear 
on some of these terrorist issues.
    Are you going to give us assurance that that is the 
direction that you will be moving?
    Mr. McQueary. I can assure you, that is my intent, sir.
    Senator Domenici. Thank you very much. Thank you, Mr. 
Chairman.

                    COMPREHENSIVE ENTRY EXIT SYSTEM

    Senator Cochran. Thank you, Senator.
    Let me ask you another question on the subject of the 
Border and Transportation Security Directorate. There is a 
project that is being planned, as I understand it, which is 
called the Comprehensive Entry Exit System. There is a 
legislative requirement that the Entry Exit System be able to 
read biometrics, which is the system to use fingerprint 
technology, facial recognition technology, or maybe even iris 
scan technology, to verify the identity of people traveling 
into or even maybe out of the United States.
    There have been investments already by the Department of 
Justice in improving fingerprint technologies. Do we need to do 
the same sort of thing for facial recognition technology and 
iris scan technology, in your opinion?
    Mr. McQueary. I believe that those two latter areas that 
you mentioned are certainly behind fingerprint recognition 
systems, though a lot of good work has been done in the 
industry and I think that we can draw upon that to make the 
decision of what direction we should go in choosing one of the 
two latter ones you mentioned as being the added biometric to 
be used for the Border Entry Exit System.

                         BIOMETRIC TECHNOLOGIES

    Senator Cochran. Do you plan to use funds that are 
appropriated to your Directorate to develop a new generation of 
biometric technologies?
    Mr. McQueary. Sir, I cannot remember at this point whether 
we have included that in this budget or not. If I may answer 
the question. The answer is yes. I apologize, I should have 
known but it has been a long day and I simply did not remember.

                        TECHNOLOGY CLEARINGHOUSE

    Senator Cochran. We are already beginning to get inquiries 
from people around the country who know about the new 
department. And those of us who serve on this funding 
subcommittee are being contacted and urged to be sure that 
their ideas and their suggestions get reviewed. How are you 
going to go about reviewing all those requests? You are going 
to have more suggestions and more ideas about how to improve 
the state of the world in so many different areas. Are you 
going to establish a clearinghouse of some kind to review these 
things?
    Mr. McQueary. Yes, sir.
    Senator Cochran. How are you going to deal with that?
    Mr. McQueary. As I mentioned in my opening statement, we 
have partnered already with the Technical Support Working 
Group, which has been in existence for several years. We expect 
to issue broad agency announcements indicating what areas of 
technology we are interested in in industry. We have a 
reprogramming action that has been proposed and if it gets 
approved as we proposed it, we then will issue the broad agency 
announcements, and industry will be able to see the areas that 
we are interested in.
    With that being said, what I am asking in people who come 
to see me is, do not ask me how can you use my thing in your 
solution. I am asking people to help me define what the 
solution needs to be. Because this, as I mentioned, is a very 
large systems problem. We are going to have some very talented 
people. But I can assure you we will not have the talent to be 
able to conceive of all the possibilities.
    So we need people who come in with ideas to help us think 
about how it can be used in a large system context because that 
is the problem that we face.
    Senator Cochran. Our job is to decide how much money you 
need.
    Mr. McQueary. Yes sir.

                        UNIVERSITY-BASED CENTERS

    Senator Cochran. Of course, we consider the request that is 
submitted by the President, but sometimes, and I am not 
suggesting this is true with this Administration, but sometimes 
Administration officials submit numbers knowing the Congress is 
going to have to increase the number. That just happens. No use 
to pretend that it does not.
    I wonder about the $15 million that is requested in this 
budget, for example, to establish university-based centers and 
support strategic partnerships with the academic community. 
That sounds like a pretty small amount of money to me.
    Mr. McQueary. I do not believe it is so small when you are 
just starting out. I think it is important that we have a good 
plan in place. I think it is important that we not take a lot 
of time to figure out what the plan is.
    But I would like to be able to come before you and present 
a plan that I know I have studied sufficiently to be able to 
say I believe this is the one that can and should be 
implemented to accomplish the things that the Congress has 
asked us to do in the legislation.
    So I am not personally uncomfortable with the amount of 
money in that area now, quite frankly.
    Senator Cochran. Thank you, very much. Senator Byrd.

               DEFENSE DEPARTMENT'S BIOMETRICS INITIATIVE

    Senator Byrd. On biometrics, Dr. McQueary, are you aware of 
the Defense Department's biometrics initiative?
    Mr. McQueary. Sir, I am only aware in a very general sense. 
I have not had a scientific review of that, but it is certainly 
an important thing for me to do.
    Senator Byrd. Do you plan to work with the Defense 
Department and other agencies to build on the testing already 
done and the lessons already learned?
    Mr. McQueary. I would view that we have not done our job 
unless we do that. We certainly must do that, because that is 
the way we determine how much money really should be spent, by 
knowing that we are using what has already been done.
    Senator Byrd. The Defense Department has been quite active 
in this area, and I hope that you will pursue that opportunity 
to build on the testing there.
    Mr. McQueary. I assure you we will.

                            MANPAD STRATEGY

    Senator Byrd. If Secretary Ridge believes that there is a 
serious threat of a shoulder-launched missile being fired at a 
commercial airliner, why did the Administration oppose an 
amendment in the Senate a few days ago to provide $55 million 
to test existing technologies on commercial aircraft?
    Mr. McQueary. Sir, I do not know the answer to the 
question, but I can try to find out to respond back to you. But 
I do not know.
    Senator Byrd. Could you give us a timeline for coming 
forward with your recommendations?
    Mr. McQueary. I, first of all, have to determine in concert 
with Secretary Ridge whether it is appropriate that the Science 
and Technology group make that recommendation or whether it 
should come out of one of the operational directorates. I 
cannot answer the question today but certainly I should be able 
to answer it soon. And I can certainly discuss that with 
Secretary Ridge and get back to you.
    Senator Byrd. Would you supply to the subcommittee an 
answer to that question, after you have had that discussion?
    Mr. McQueary. Yes sir.

                          PERFORMANCE MEASURES

    Senator Byrd. You are responsible for developing a national 
policy and strategic plan for identifying priorities, goals, 
objectives, and policies for and coordinating the Federal 
Government's civilian efforts to identify and develop 
countermeasures to chemical, biological, radiological, nuclear 
and other emerging terrorist threats, including annual 
measurable objectives and specific targets.
    On page 26 of your budget justification, you find these 
words: performance measures for the Science and Technology 
Directorate have not been established. And yet you are 
requesting an $803 million budget, including $242 million or a 
43 percent increase over last year.
    How is this subcommittee supposed to evaluate your request 
if we do not have any performance standards to go by?
    Mr. McQueary. I think you should ask us to provide those 
performance measures and I agree with that. The response that 
we have there is the one we have today but it is not 
satisfactory long-term. And we do need to have performance 
measures. I agree. I come out of an industry where if you 
cannot measure it, you cannot be sure it has been done.
    Senator Byrd. Exactly. I would suggest that you do your 
best then, Mr. Secretary, to provide the subcommittee with 
reliable performance measures during the fiscal year 2004 
budget process, so that we can evaluate your $803 million 
request.
    Mr. McQueary. Yes sir.
    Senator Byrd. Congress has appropriated billions of dollars 
since 9/11, much of which has gone to the development of 
technological capabilities to prevent terrorist attacks. This 
subcommittee is going to be working very hard to make sure that 
the investment is spent wisely. So please take steps, since you 
do not have anything on paper, please take steps to develop 
performance measures, as you have indicated you will, so we 
will know if the money is appropriately being spent 
effectively.
    Mr. McQueary. Yes sir.

          HOMELAND SECURITY ADVANCED RESEARCH PROJECTS AGENCY

    Senator Byrd. I have one other question.
    Public Law 107-296, the Homeland Security Act, created the 
Homeland Security Advanced Research Projects Agency. The agency 
is modeled on the Advanced Research Projects Agency except that 
the goal of the agency is to develop technologies that would 
benefit homeland security.
    In your prepared testimony you estimate that $350 million 
of your overall request of $803 million would be carried out by 
this new Advanced Research Projects Agency. But the Homeland 
Security Agency Act authorizes only $500 million. Why is there 
a $150 million gap between your funding requests and the 
authorized amount?
    Mr. McQueary. Sir, my approach, having come out of the 
industrial side, is we are in the business of funding products 
and systems, and those products and systems in general will cut 
across not only the Homeland Security Advanced Research Project 
Agency, but the work that is done in the laboratories.
    And so my belief, and a strong belief, is that developing a 
budget based upon products and systems is a better way than 
doing an organizational budget which would be equivalent to 
saying how much are we going to spend in HSARPA? I assume the 
$500 million may have been an estimate that someone had and the 
$350 million that we have estimated is certainly that. It is an 
estimate, because the detailed programs have not been put 
together through competitive approaches or through work that is 
done in the laboratories.
    Senator Byrd. In 1959, Congress approved $485 million for 
what was then known as the Advanced Research Projects Agency, 
ARPA. This was the first year it received an annual 
appropriation.
    I do not know what is the matter with my throat today. I am 
not smoking any cigars, although I do like them.
    Mr. McQueary. Perhaps I could join you in a private moment 
then, with one of those.
    Senator Byrd. Let us try that. Do you have anything else on 
your hip?
    I think you would acknowledge that to date research and 
development activities in support of homeland security have 
been underfunded. In light of that, what do you think an 
appropriate funding level for this agency would be?
    Mr. McQueary. I missed which agency, sir. For the 
Department of Homeland Security?
    Senator Byrd. The next question is pertinent. Are you 
planning to request a higher level for HSARPA in future years?
    Mr. McQueary. Sir, it is premature to say yes or no to 
that, because I think it is important that we examine the needs 
of the directorates that make up the Department of Homeland 
Security, and from that determine what the program should be. 
Those needs will be looked at from the standpoint of ``do we 
need to be funding work ourselves or do we need to simply be 
buying what already exists out in America today?''
    And we have to answer that question, and you have every 
expectation that we should.
    Senator Byrd. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Senator Cochran. Thank you, Senator Byrd.

                 FISCAL YEAR 2003 REPROGRAMMING REQUEST

    Mr. Secretary, yesterday we received a request from the 
Department of Homeland Security to reprogram fiscal year 2003 
appropriations for your Directorate.
    Mr. McQueary. Yes.
    Senator Cochran. This reprogramming could not have been 
anticipated when the budget request we are reviewing today was 
composed. Will the request for fiscal year 2004 be changed if 
this reprogramming request is approved? Specifically, do you 
believe that the balance of funds resulting from a 
reprogramming will be sufficient to carry out the biological 
research and defense activities for the Fort Detrick Biowarfare 
Center for the remainder of this fiscal year?
    Mr. McQueary. Yes, I do. In fact, the budget for Fort 
Detrick, we explicitly know that that is sufficient for this 
year because, as you know, we do not have a lot of the fiscal 
year left, and therefore it is not necessary to spend as much. 
And that is part of the thinking that went into that.

                STANDARDS FOR FIRST RESPONDER EQUIPMENT

    Senator Cochran. The detection equipment used by first 
responders to alert the public of threats from chemical, 
biological, or radiological sources is an important line of 
defense for first responders to use to alert the public if a 
terrorist attack is taking place or has taken place. There 
currently are no standards for much of the equipment that is 
being used for the detection of these attacks. Once standards 
and technologies are developed, the Homeland Security Act 
authorizes the Secretary to create a system for transferring 
Homeland Security technologies to Federal, State and local 
Governments in the private sector.
    Can you tell us if there are standards and criteria being 
developed now by the Department for the equipment that will be 
used to respond or alert the public to a terrorist attack when 
it occurs?
    Mr. McQueary. We specifically have a group working on 
standards. That group is working in concert with NIST and the 
American National Standards Institute because we are not trying 
to create standards all by ourselves. We are relying upon work, 
very good work, that has been done within the Government 
previously.
    We have already issued a draft, I believe it is a draft, 
for radiation detectors for comment already. So that has been 
done and we are actively working on that.
    And you will see we have, in the fiscal year 2003 
reprogramming action, as well as in the proposed budget for 
fiscal year 2004, we have money in there to continue to work 
the standards issue. It is a very important issue to help the 
local responders be able to save money because now with no 
standards they are more or less subjected to whatever happens 
to be sold to them and rendering the judgments themselves.
    Senator Cochran. Do you intend to take into account the 
views and suggestions of the local end-users, such as the first 
responders themselves, who have had experience in these 
matters, the police, fire, the transit authorities, so that you 
can develop the most sophisticated detection devices possible?
    Mr. McQueary. Sir, those are the customers for what we do 
and the answer is emphatically yes, because that is where we 
need to be getting the requirements for what we do, is at the 
first responder level. We do have plans in place to be able to 
accomplish that, so that we do have their inputs.
    Senator Cochran. Will there be any effort by the Department 
to provide funding to those in the private sector who are 
working on these standards and technologies for devices?
    Mr. McQueary. I would view the standards work as being 
more--where the opportunity would be is when you have 
development of laboratories that would be testing--similar to 
Underwriters Laboratories. We certainly do not intend to build 
a government laboratory. So anything that we would do would go 
to the private sector or the Government, if labs are available 
to be able to do that.
    Senator Cochran. Or could some of this research be done at 
the university centers?
    Mr. McQueary. Absolutely. Yes sir.

   APPLICATION OF DEPARTMENT OF DEFENSE TECHNOLOGIES, EXPERIENCE AND 
            EXPERTISE TO MEET HOMELAND SECURITY REQUIREMENTS

    Senator Cochran. The U.S. military has methods of detecting 
chemical attacks, and certainly in the Operation Iraqi Freedom 
this is something that has been utilized. But there is a large 
difference between the military and the private sector and the 
civilian population.
    How do you intend to utilize the expertise and the 
experience of the Department of Defense in helping develop 
technologies for the civilian population and our civilian 
agencies that will be called upon to help protect our homeland?
    Mr. McQueary. We certainly intend to draw on the enormous 
amount of work the Department of Defense has done in this area. 
As I would see it, a crucial issue for us, however, is that we 
have to have a low false alarm rate. The military is in a 
slightly different position. If they have a false alarm and go 
to general quarters, they can stand down if they find there was 
nothing. Whereas in the civilian population, we cannot afford 
to constantly have our people being in an excited state because 
alarms were put forth and they turned out to have no merit.
    So I see the major effort that we have to accomplish is in 
that area of determining, from a technological standpoint, how 
we can keep the false alarm rate at a level the country can 
live with in the civilian population.
    Senator Cochran. I know our staff members have reviewed the 
statement that you submitted very carefully. We will probably 
be submitting some additional questions to you to fill out our 
hearing record to be sure we understand the request you have 
submitted, and to be assured that we know enough about it to 
make an intelligent decision about the amount of funding you 
need for the coming fiscal year.
    But we wish you well in this undertaking. This is a very 
important responsibility that you have assumed. We appreciate 
your service and the good work that the Department officials 
are doing to organize this new department, get it running, and 
get it off to a good start.
    We wish you well.
    Mr. McQueary. Thank you very much. I look forward to it and 
I look forward to working with this committee and to better 
educate you on what we are doing because I think the better off 
we all will be. So I look forward to that.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Senator Byrd, any further comments or 
questions?
    Senator Byrd. I join with you in your good wishes and I 
thank the Secretary and wish him well.
    Mr. McQueary. Thank you, sir.
    Senator Cochran. Mr. Secretary, we appreciate your 
cooperation with our committee. Other Senators may submit 
written question, as well, and we ask you to respond to them 
within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                        DEVELOPMENT OF STANDARDS

    Question. The detection equipment used by first responders to alert 
the public of chemical, biological, or radiological threats is the 
front-line of defense for first responders to alert the public if a 
terrorist attack took place. As you are aware, there are currently no 
standards for much of the equipment that is being used for the 
detection of these attacks. Once these standards and technologies are 
developed, the Homeland Security Act authorizes the Secretary to create 
a system for transferring homeland security technologies to Federal, 
State, local governments and the private sector. What standards and 
criteria are being developed by the Department of Homeland Security for 
the equipment that will detect and respond to any attack that may 
occur?
    Answer. The need for standards and criteria for equipment being 
developed by the Department of Homeland Security (DHS) was recognized 
during the initial stages of developing the Science and Technology 
(S&T) Directorate's long-range strategy. During the transition phase, 
the need for standards to address design, procurement, deployment, and 
use of the radiological and biological detectors was determined to be a 
key need. In collaboration with the National Institute of Standards and 
Technology (NIST), the American National Standards Institute (ANSI) and 
the Institute of Electrical and Electronic Engineers (IEEE), the DHS 
S&T transition team began development of standards for four high-
priority classes of radiation detection equipment. The four classes are 
personal dosimeters (``pagers''), alarming hand-held detectors, hand-
held isotope identifiers, and radiation portals. These standards have 
been released in draft form and will soon go to ballot, in accordance 
with ANSI process requirements for national consensus standards. A 
contract to develop a standard test method for hand-held bulk anthrax 
immunoassay kits is being prepared.
    Work is also progressing in the areas of training standards and 
personnel certification. Additional standards needs for both detection 
and response are being identified as part of a systematic evaluation of 
capabilities versus needs for standards to support the homeland 
security mission related equipment, operators, models and analyses, 
data and information, and integrated systems.
    Question. How will the Department take into account the needs of 
the local end-user, such as the police or the mass transit authorities, 
to develop the most sophisticated detection devices? Does the 
Department intend on providing any pilot or seed money to involve the 
private sector in working on these sets of standards? What are the 
complexities in establishing such a system, and how would you 
characterize your progress so far in meeting this responsibility?
    Answer. The needs of the local end-user community are a key part of 
the DHS S&T standards development process. The very first step in our 
process includes input from users to help determine performance 
guidelines. The actual development of performance measures, facilitated 
by standards experts, represents a balance among three drivers. The 
user is engaged to provide guidance on operating conditions, procedures 
and functionality. Analysts who help define the threats provide 
information on the problem to be solved by detection devices. Finally, 
developers who understand governing scientific principles and the 
relative sophistication of the equipment provide information on the 
technical capabilities and limitations of the detectors. Reassessment 
of the standards based on lessons learned and equipment evolution is 
also an integral part of the planned process.
    The actual mechanism for engaging the user community--which 
includes State, local, and Federal Government end-users--varies. For 
the standards currently in development, the users have been engaged 
through established organizations that represent a wide range of users. 
One example is the Interagency Board for Equipment Standardization and 
Interoperability (IAB). The State Homeland Security Advisors are also 
anticipated to be key resources for providing the right staff for input 
to the process. We expect that these groups and other technical 
organizations will provide a nucleus around which a capability will be 
built to obtain State and local responder participation in future 
standard development efforts and to provide information about how 
specific technologies conform with standards for procurement purposes. 
Organizations throughout the Department work with representatives of 
these entities and other key end users on a day-to-day basis, and we 
will leverage user input and feedback through these relationships.
    The private sector has already been involved in the process of 
developing voluntary consensus standards. Manufacturers, academics, and 
professional societies have been strongly represented in the groups 
that have already been activated. The traditional method for producing 
standards involves volunteers to lead and staff the writing groups. 
Some funding has been set aside to support the writing committee 
chairs. Funds have also been planned to help support the ANSI Homeland 
Security Standards Panel that will aid in cataloging and coordinating 
standards development with the professional societies that are the 
traditional source for United States' national voluntary consensus 
standards.
    In terms of the complexity in establishing a system that addresses 
standards relevant to DHS, the development of a suite of standards is a 
significant undertaking. The interrelated nature of the homeland 
security defensive system for emergency response--plus the need to 
ensure that the emergency system is interoperable and integrated with 
the existing infrastructure also adds to complexity. Incorporating the 
requirements of Federal, State, and local responders into a coherent 
and flexible system is essential but creates a very large-scale problem 
set. Finally, we are dealing with both a rapidly evolving threat and 
with constantly evolving technologies. Therefore, there is a crucial 
need to ensure flexibility in the standards that are developed or they 
will quickly become unusable, and an obstacle to the deployment of next 
generation technologies.
    We would characterize our progress to date as satisfactory. The 
process for developing standards traditionally takes a minimum of 18 
months and some standards have taken up to 15 or more years to develop. 
The proposed radiation detection standards have been developed in about 
6 months--and the rollout of the draft occurred less than a month after 
the Department became operational. Our future efforts will continue to 
use the ANSI existing standards development organizations and their 
memberships to expedite development and adoption of relevant standards. 
We also will provide funding to support what were heretofore strictly 
volunteer efforts, to expedite writing of critical standards for 
homeland security. We will champion the inclusion of users in all major 
stages of standards development--including the formulation of 
operational test protocols. We will also encourage the use of automated 
tools and web-based review and tracking to streamline the process. The 
assets provided by ANSI will be leveraged to build on existing 
standards and standard development expertise to fill the gaps and needs 
in our current system of standards.

                        CONCERNS FOR RURAL AREAS

     Question. While there is concern about the Nation's largest urban 
areas being vulnerable to terrorist attacks there should also be equal 
concern about the Nation's rural areas. Much of the Nation's critical 
infrastructure such as bridges, highways, railroads, electric power 
lines, pipelines, and drinking water reservoirs and dams are located in 
rural America. Advances that have been made in information technology 
and the internet should make the task of securing the homeland easier 
and more cost effective by putting this technology to work in rural 
America to protect these critical infrastructures.
    (a) Does the threat and vulnerability, testing and assessment 
program include funding for technologies and systems which meet the 
threats that may arise in rural America?
    (b) Can you elaborate on the proposed formation and activation of 
the advanced research and development center that will include advanced 
technology support to the Department?
    Answer. (a) The Threat and Vulnerability, Testing and Analysis 
(TVTA) program's planned activities address the needs of rural regions 
in several ways. We are developing advanced information systems, tools 
and sensors in order to better detect possible terrorist intentions, 
and to help analysts map threats to specific targets including rural 
reservoirs, power generation plants, and agriculture. Many of these 
tools will be designed to be usable by local officials to aid in 
regional efforts to combat terrorism. The cost of deploying new sensor 
technologies in remote areas has often been high due to communication 
infrastructure needs. To enable a lower cost, rapidly deployable 
alternative, we are planning a demonstration of new capabilities to 
link sensors to central monitoring stations using existing Federal and 
private communications infrastructures. New portable technologies to 
detect threats, such as improved radiation and biological agent 
detectors, are being developed by the S&T Directorate. Sensors alone 
cannot solve the problems associated with potential terrorist threats. 
Looking beyond sensor technology, we will develop models of the 
behavior and motivations of terrorist organizations to better 
understand the conditions that may lead to a rural attack.
    (b) It is the S&T Directorate's role to support the needs and 
requirements of the Department of Homeland Security. The Science and 
Technology Directorate carries the responsibility for ensuring that the 
necessary research, development, test and evaluation (RDT&E) activities 
are carried out to support the Information Analysis and Infrastructure 
Protection (IAIP) mission in cybersecurity. To satisfy this mission as 
it relates to cybersecurity, it is our intention to create a RDT&E 
center for the Department's cybersecurity needs.
    The DHS Cybersecurity Center will team through partnership and 
cooperation with NSF and NIST. This center will be available to us 
through the academic community--including partners from industry, the 
national labs and other government programs. We see this as critical--
to combine all resources and efforts across the government R&D 
community to accelerate the technical solutions towards this issue.
    The Center will have five primary roles or functions, as follows:
  --Provide communication and coordination among various public and 
        private organizations dealing with the many diverse aspects of 
        cybersecurity. The Center will foster national and 
        international cooperation in creating a robust and defensible 
        cyber infrastructure.
  --Support the operational needs of the IAIP Directorate relative to 
        vulnerability assessments and new tools and methods for 
        enhancing cybersecurity. Through public-private interactions, 
        this center will also facilitate the implementation of 
        security-enhancing tools and methods by government and private 
        agencies.
  --Direct Support to IAIP: in addition to responding to DHS RDT&E 
        needs, the center may be asked to provide on-call technical 
        expert capabilities in support of emergency response for rapid 
        vulnerability mitigation in response to cyber threats.
  --The center will further identify and then implement RDT&E programs 
        to address specific gaps in the R&D community. A unique feature 
        of the DHS Center will be the utilization of existing or the 
        development of test beds where new cybersecurity methods, 
        tools, and approaches can be exercised in a controlled 
        environment and evaluated against common, accepted standards. 
        Developing the test beds and measurement-performance standards 
        will be an element of the center's program.
  --In order to have the necessary human resources who possess the 
        requisite knowledge and skills to advance and secure the 
        nation's cyber infrastructure, the center will foster 
        educational programs and curriculum development. This will be 
        done in conjunction with participating universities who can 
        serve as a nucleus for developing and disseminating new 
        materials to have the broadest possible benefit to the nation 
        and the upcoming stream of scientists and engineers.

          DEPARTMENT OF HEALTH AND HUMAN SERVICES COORDINATION

    Question. The Homeland Security Act authorizes Secretary Ridge to 
set research and development priorities for anti-terrorist 
countermeasures, but it also gives authority to the Secretary of Health 
and Human Services to set priorities in civilian human health-related 
terrorism countermeasures.
    Have you entered into discussions with the Department of Health and 
Human Services to establish priorities for basic and applied biodefense 
research?
    Answer. Yes. In compliance with Homeland Security Act of 2002, 
Public Law 107-296, Section 302(2), the Department of Homeland Security 
(DHS) and the Department of Health and Human Services (HHS) are working 
together on biodefense research priorities. During the transition 
period leading to establishment of the DHS, the HHS provided an 
individual to the Homeland Security Transition Planning Office. 
Subsequently, several steps were taken to formalize a continuing 
interaction. An interagency coordinating committee, co-chaired by The 
Executive Office of the President's National Science and Technology 
Council (NSTC), the Homeland Security Council (HSC) and the Office of 
Management and Budget (OMB), has been established as the vehicle for 
coordinating and prioritizing the national bio-defense research, 
development, test and evaluation agenda. A Memorandum of Understanding 
(MOU) between the Department of Health and Human Services and the 
Department of Homeland Security has been established to enable closer 
coordination on issues that are specific to DHS and HHS.
    Question. How do you propose to cooperate with the Department of 
Health and Human Services to set priorities and resolve conflicts?
    Answer. Two key steps are being taken to formalize our cooperation 
with the Department of Health and Human Services in setting priorities 
and resolving conflicts. First, an interagency coordinating committee, 
co-chaired by The Executive Office of the President's National Science 
and Technology Council (NSTC), the Homeland Security Council (HSC) and 
the Office of Management and Budget (OMB), has been established as the 
vehicle for coordinating and prioritizing the national bio-defense 
research, development, test and evaluation agenda. This Chemical, 
Biological, Radiological and Nuclear Research Coordinating Committee 
(CBRN-RCC) will be the primary vehicle for coordinating and 
prioritizing the multi-agency annual bio-countermeasures research 
agenda and portfolio and will be responsible for planning for specific 
R&D efforts in bio-countermeasures. Second, the Memorandum of 
Understanding (MOU) established between the Department of Health and 
Human Services and the Department of Homeland enables closer 
coordination on issues that are specific to DHS and HHS.

      HOMELAND SECURITY ADVANCED RESEARCH PROJECTS AGENCY (HSARPA)

    Question. The newly created Homeland Security Advanced Research 
Projects Agency (HSARPA) was patterned after the Department of 
Defense's (DoD) Advanced Research projects Agency and intends to speed 
up the development of technologies that would address homeland security 
vulnerabilities. There is concern whether the $350 million requested 
can be effectively and efficiently used and whether the Department of 
Defense's Advanced Research projects Agency is applicable for homeland 
security research and development.
    What is your schedule for creating this agency, do you intend to 
staff it with existing personnel or new personnel, and when do you 
expect it will begin operations?
    Answer. HSARPA will be operational no later than June 1, 2003. At 
that time it will have few dedicated staff, and will be operated by 
personnel from S&T headquarters in a ``dual-hatted'' mode. HSARPA will 
be staffed with new personnel.
    Question. What are the major tasks that must be accomplished to 
create this agency, and what do you consider to be the most difficult 
challenges you will face its creation?
    Answer. Key tasks are staffing, and developing the contracting 
processes needed to access the private sector. Staffing HSARPA with 
people of the highest quality, and with knowledge and skills at the 
cutting edge of technology, represents the most difficult challenge in 
setting up the Agency.
    Question. Of the $350 million requested for this new entity in how 
much of these funds include efforts funded elsewhere in the Department 
or by other agencies in fiscal year 2003 and prior years and how much 
represents funding for new activities?
    Answer. All of the efforts contemplated for HSARPA in fiscal year 
2004 are either new starts in fiscal year 2004, or continuations of 
activities started within DHS (S&T) in fiscal year 2003.
    Question. How much of the $803 million requested for the Science 
and Technology Directorate in fiscal year 2004 continues ongoing 
programs, and how much funds new research and development activities? 
How much of these funds goes for actual technology and systems 
development and how much for more generic basic and applied research?
    Answer. $400 million of the $803 million represents new activities. 
The remainder are continuations or enhancements to activities initiated 
in fiscal year 2003. How much of the funds will go for actual 
technology development versus basic and applied research is difficult 
to answer at this time; DHS does not break down its RDT&E efforts into 
6.1-6.4 categories like DOD. It is safe to say, however, that our 
initial focus will not be in basic research (6.1), but rather 6.2-6.3 
(to use DOD categories). There are exceptions, however. Some of the 
cyberforensics efforts will be 6.1 in nature, as will our efforts in 
the social sciences (such as behavioral or autonomic indicators of 
hostile intent, or efforts to develop an understanding to peoples' 
reactions to threat warnings).
    Question. The largest component of these funds is $365 million for 
Biological Countermeasures, much of which may be executed through the 
less than 1-year old National Biodefense Analysis and Countermeasures 
Center that transferred from DOD. How much of these funds are for new 
activities, and how much for efforts less than 1 year old that have 
transferred from DOD?
    Answer. Of the $365 million in the fiscal year 2004 Biological 
Countermeasures budget, approximately $180 million is for the National 
Biodefense Analysis and Countermeasures Center (NBACC). Of that $180 
million, $90 million is for continuation of activities begun in fiscal 
year 2003 to address recognized deficiencies in the nation's 
preparation and response to bioterrorism. The remaining $90 million is 
for initiation of construction of the NBACC facility that is a 
continuation of the $5 million fiscal year 2003 investment in 
construction planning and design. These are activities over and above 
existing Department of Defense programs, the need for which was 
recognized by both the then Office of Homeland Security and the 
Department of Defense in their original request for NBACC. The Homeland 
Security Act of 2002 transferred these responsibilities to the new 
Department of Homeland Security.
    Question. How much of these funds are for continuing older 
activities at DOD?
    Answer. None of the requested NBACC funding is for continuing older 
activities at the DOD. The NBACC appropriations and programs were 
initiated in fiscal year 2003 to address recognized deficiencies in the 
nation's preparation and response to bioterrorism. These are activities 
over and above existing Department of Defense programs, the need for 
which was recognized by both the then Office of Homeland Security and 
the Department of Defense in their original request for NBACC.
    Question. Do you intend to alter any of the research priorities 
established by DOD for these programs?
    Answer. There is no intent to alter the vision or research 
priorities of the National Biodefense Analysis and Countermeasures 
Center (NBACC) program identified by the Department of Defense (DOD). 
The Department of Homeland Security (DHS) supports the NBACC research 
priorities originally established by the DOD, and now supported by DHS. 
The NBACC program includes addressing the issues of characterization of 
these biological threats. Highest priority is given to this risk and 
vulnerability analysis, which identifies the nature of newly emerging 
threats and potential countermeasures to mitigate these threats. This 
information and data will comprise a net assessment and will be used to 
provide a scientific foundation to comply with the provisions of Public 
Law 107-296, Section 302(2). The NBACC will operate in a hub and spoke 
laboratory model, with the majority of the funds distributed to high 
value facilities in academia, industry and the national laboratory 
system. Four centers are being established in fiscal year 2003, each 
setting research priorities, and each partnered with a principal 
Federal agency. The Bioforensics Center, as an example, is partnered 
principally with the Federal Bureau of Investigation (FBI) to develop 
an unimpeachable program for analysis and attribution studies of 
biological materials obtained from legal casework or foreign materials 
identified as potential bio-terrorist or biological warfare threats.
    Question. The submitted statement indicates that the $137 million 
sought for Radiological and Nuclear Countermeasures will, in part, fund 
concurrent efforts to deploy, evaluate, and improve currently available 
technologies and R&D on advanced technologies.
    Concurrent efforts usually require a certain level of maturity in 
the underlying technologies before they can deployed successfully. What 
technologies in this area do you think will be mature enough to support 
this type of development in fiscal year 2004?
    Answer. Nuclear material portal monitors, hand-held search and 
isotope identification equipment, personal dosimetry devices, and 
imaging systems are commercially available. Immediate limited 
deployment in fiscal year 2004 of this equipment in varied operational 
and environmental contexts will meet three objectives: getting 
available nuclear detection equipment into the field at key locations, 
focusing research and development by more thorough elucidation of 
technical limitations and operational issues and constraints of 
existing commercially available equipment, and establishing field test-
beds for rapid testing and evaluation of prototype equipment as it 
becomes available. This three-pronged approach is important for 
assuring that the right research and development projects are pursued 
and that the products can be quickly and effectively implemented into 
the countermeasure system that meet end-user needs.
    Question. Within the limits of unclassified information, what are 
the most promising advanced technologies that you will be developing in 
the Radiological and Nuclear Countermeasures area?
    Answer. The existing nuclear technology base was developed for 
applications including nuclear materials safeguards, environmental 
monitoring and clean-up, and nuclear facility decommissioning and 
demolition. This technology base is an important starting point for 
advanced technology research and development initiatives that address 
current and future nuclear and radiological threats. These initiatives 
include technologies for passive detection and discrimination of 
radiological and nuclear materials that will benefit multiple DHS 
missions. Specific passive detection thrust areas include room 
temperature detector technologies, imaging systems, low-cost detector 
concepts, and mobile detection systems. Active interrogation 
technologies will also be developed to address critical gaps in our 
current capabilities (e.g. detection of highly enriched uranium and 
shielded nuclear and radiological material). Concepts in this area 
include gamma-induced fission systems and neutron interrogation 
systems. New capabilities to search for and neutralize threats are 
needed and will be pursued; specific areas include broad area search 
and characterization, information analysis and assessment, and render 
safe technologies. Development efforts to provide rapid detection, 
triage and decontamination technologies will address identified 
consequence management and recovery technology gaps.
    Question. The submitted statement discusses plans for ``continuous 
insertion (of these advanced technologies) into operational use.'' A 
major challenge for research and development activities is the actual 
transition of technologies into fielded systems. Incomplete, delayed, 
or unsuccessful transition is not uncommon, at least in Defense 
Department advanced technology programs.
    What specific steps will you take to minimize the problems usually 
associated with transitioning advanced technologies into operational 
use?
    Answer. Technology transition is a key goal for the DHS S&T 
Directorate. We are taking a multilayered approach. First, we involve 
the user community at the outset of any project we undertake in order 
to develop program goals. As the program matures, the user community 
will also contribute to the development of system requirements and 
operational concepts. Second, we will engage in demonstrations 
periodically through the development process to generate feedback from 
the user and reduce technical risk. Finally, HSARPA will engage, where 
appropriate, in pilot deployments of the technology, where operators 
use the equipment in an operational setting while DHS S&T provides 
technical support and funds the operations and support costs. This 
pilot deployment concept reduces operational risks to the user, 
provides insight for product improvement, and allows the user to budget 
for system procurement and support costs at an appropriate level of 
maturity.
    Question. In providing support for other DHS components, such as 
the Coast Guard and Border and Transportation Security Directorate, you 
stated says ``research and development in potentially high payoff 
technologies will be emphasized.''
    What potentially high payoff technologies exist in this area, and 
how do they differ from those already being developed by R&D funds 
sought in separate R&D budget requests in some of these components, 
such as TSA and the Coast Guard?
    Answer. The purpose of DHS S&T is to ensure alignment with the 
National Strategy and implement an overall DHS/S&T strategy. The DHS 
S&T strategy includes coordinating and incorporating the strategies of 
individual components such as TSA and Coast Guard to ensure our efforts 
are leveraged to the maximum extent possible.
    From the Coast Guard's perspective, the greatest opportunities with 
S&T funding lie in developing technologies for the detection of threats 
in the chemical, biological, radiological and nuclear (CBRN) domain. 
The tools developed by S&T's investments will have significant 
applicability for the U.S. Coast Guard in the maritime environment. The 
Coast Guard is positioned in this effort to work with S&T to help 
integrate various types of sensors to improve overall capability, 
including portability, and to identify capability gaps in detection 
where technology offers opportunities. The support and collaboration 
DHS S&T provides will accelerate the development and deployment of 
these critical CBRN detection technologies and capabilities; clearly 
the CG enjoys a complimentary relationship with DHS S&T in this 
endeavor.
    Another high payoff technology example is Unmanned Aerial vehicles 
(UAVs) for both Border and Transportation Security as well as Coast 
Guard applications. DHS S&T is investigating whether implementing UAVs 
could strengthen security along the borders and ports as well as 
monitoring the safety and integrity of critical infrastructures. 
Additionally, as part of the Integrated Deepwater System, the Coast 
Guard plans to utilize UAVs.
    High payoff technologies to detect and counter biological, 
chemical, and radiological and nuclear threats and attacks will benefit 
multiple components of DHS.
    Question. DHS statements about its R&D activities frequently refer 
to rapid prototyping, and $30 million of the $803 million requested is 
``to solicit from the private sector near-term capability that can be 
rapidly prototyped and fielded.''
    Is this $30 million the only funding for rapid prototyping efforts, 
and what are the key technologies and capabilities that you believe are 
ready for rapid prototyping?
    Answer. The $30 million is intended to solicit from industry near-
term technologies that may be available for rapid prototyping in 
priority areas in homeland security. Our expectation is that this will 
be sufficient funding for that purpose. Areas of interest where we 
expect substantive responses include personal decontamination 
technologies; protective gear; remediation technologies; sensors; 
cybersecurity capabilities; public training and outreach tools; and 
forensics.
    Question. The private sector is naturally optimistic about the 
readiness of its technologies for rapid prototyping. What factors will 
you evaluate to assess whether rapid prototyping potential is real or 
overstated?
    Answer. We will rely heavily on evaluating the technology on its 
scientific and engineering merits; the maturity of same; operational 
suitability (in terms of false alarm and miss probabilities, 
throughput, training, reliability, and support costs); and 
manufacturability.
    Question. What are the principal components of the $803 million 
request that comprise the $350 million intended for the new Homeland 
Security Advanced Research Projects Agency?
    Answer. The research activities that we will conduct in HSARPA cut 
across the priorities for DHS S&T. Thus, the research activities 
planned include:
  --Biological Countermeasures.--This includes remediation 
        technologies, and development of the next generation of 
        environmental sensors.
  --Chemical Countermeasures.--This includes remediation technologies 
        and development of facilities monitoring and response systems.
  --High Explosives Countermeasures.--Included here are activities 
        designed to detect at range large quantities of high explosives 
        (i.e. truck bombs).
  --Radiological and Nuclear Countermeasures.--Included here are new 
        concepts for actively probing for the presence of fissile 
        material, and for taking advantage of long residence times in 
        ship containers to passively detect fissile material.
  --Critical Infrastructure Protection.--Included here is reaching out 
        to the academic community to develop and test methodologies for 
        systematically revealing interdependencies among 
        infrastructures.
  --Support to DHS Components.--Included here are activities supporting 
        conventional missions of the Department, such as advanced 
        biometrics, and advanced techniques for monitoring the border.
  --Rapid Prototyping Program.--Organizationally, the technology 
        clearinghouse is managed under HSARPA. Thus, the TSWG BAA, and 
        rapid prototyping activities occur here.
  --IT Infrastructure.--Included here is developing advanced scalable 
        techniques for organizing extant disparate databases and 
        conducting queries of same efficiently.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

                               SAFETY Act

    Question. The purpose of the SAFETY Act provisions (at Subtitle G--
Sections 861-865) in the Homeland Security Act was to encourage 
immediate deployment of existing anti-terrorism technologies--
especially for high risk potential targets. However, nothing has yet 
been done to implement the SAFETY Act. We understand that OMB has 
drafted implementing regulations that are awaiting review at the 
Department of Homeland Security.
    When will these regulations be issued?
    Answer. It is not possible at this time to identify a specific date 
on which these regulations will be issued. The regulations to implement 
the SAFETY Act are a high priority and are presently under review at 
DHS. DHS is working with the Office of Management and Budget (OMB) to 
finalize an initial set of SAFETY Act regulations. We expect to publish 
these regulations for comment very shortly. Following the public 
comment period, the regulations will be finalized and issued.
    Question. Will they be effective immediately?
    Answer. The point at which the regulations will become effective 
following their finalization is also under discussion.
    Question. How does DHS plan to staff implementation of the SAFETY 
Act so that technologies can be qualified quickly?
    Answer. DHS has researched using a combination of private and 
public sector certification efforts to help understand the likely 
needs--in terms of process, facilities, and staff. DHS will reach out 
to the private sector to staff and perform specific tasks in the 
process. DHS will also leverage current USG assets and processes to the 
extent possible to proceed quickly with SAFETY Act implementation.
    Question. In order to avoid the delay associated with a lengthy 
rulemaking and qualification process, will DHS consider an emergency 
qualification process that at least lets the top10 high risk sites get 
technology in place?
    Answer. There are plans for both an immediate implementation path, 
as well as for a longer-term ``ideal state'' process that would 
implement the SAFETY Act. The technologies that will be considered in 
both types of processes will focus on those technologies and systems 
that have been demonstrated to make the largest contribution to risk 
reduction for the homeland security defensive system--and that meet the 
criteria contained in Subtitle G. Each geographical site and type of 
facility will have different types of vulnerabilities. They will also 
have different probabilities for attack and different means of attack 
will have different consequences. Understanding the contribution of a 
specific technology on the total system must include consideration of 
the synergies and the respective degree of impact on overall risk.
    Question. What steps can DHS take right away to qualify key 
technologies for high priority sites?
    Answer. An expedited process for consideration of high profile, 
high-consequence technologies is being developed. The technologies must 
meet the criteria of Subtitle G. They must also be assessed to be 
effective with respect to significant reduction of overall system 
vulnerability and adequate information and data must be available to 
allow DHS to address the effectiveness and adequacy of the technology 
in the system context.
    Question. Is it correct that DHS has several pending applications 
for qualification?
    Answer. DHS does not have an application process in place. The 
process will be contingent upon issuance of regulations. Public 
notification of the application process and of the select categories of 
technologies that will be considered for certification will be made 
through the DHS website after regulations are issued.
    Question. Does DHS have a list of high priority sites and their 
needs?
    Answer. DHS has been considering overall system vulnerabilities and 
methods to assess gaps and needs. Many methods have been used to 
develop this understanding, and much of this knowledge has been derived 
from studies done by other USG agencies that had homeland security 
responsibilities prior to March 1, 2003. This process will become 
increasingly more rigorous as a more complete suite of tools is 
developed and implemented. Thus, we expect our assessment of high 
priority aspects of the system to evolve in response to both increased 
understanding and with changing conditions.
    Question. If not, what can be done to get that information rapidly 
before DHS?
    Answer. The question of specific sites versus system vulnerability 
is answered above.
    Question. What else can we do to reduce delay in making this 
technology available?
    Answer. It is critical that, both in the initial stages of SAFETY 
Act implementation as well as in the future when the process has 
reached its ideal state, that only the most important technologies, in 
terms providing major risk reduction, are considered for certification. 
The system will quickly become overloaded and extremely burdensome if 
every conceivable technology must be reviewed or evaluated.
    Question. Can you report back to us within a week as to how an 
emergency process might begin?
    Answer. Until DHS and OMB have completed their review and have 
issued guidance for the actual implementation of the SAFETY Act, it 
would be premature to discuss an emergency process. However, much 
thought and research is going into this topic so that the Department 
will be prepared to move out quickly after issuance of the guidance.
                                 ______
                                 

             Questions Submitted by Senator Mitch McConnell

    Question. Would you please describe the process that the 
Department, or more specifically, the Science and Technology 
Directorate, will use in soliciting and evaluating research proposals 
so as to ensure that the highest quality proposals receive funding?
    Answer. In all cases the Department will rely on review by experts 
in the field. In addition, for directed (e.g. applied) research, 
selection criteria will also include responsiveness to the programs 
needs, schedule and cost realism, and key personnel.
    Question. Would you please describe what proportion of the Science 
and Technology efforts of DHS will focus on basic research and what 
proportion will focus on application of new technology?
    Answer. This question is difficult to answer at this time; DHS does 
not break down its RDT&E efforts into 6.1-6.4 categories like DOD. It 
is safe to say, however, that our initial focus will not be in basic 
research (6.1), but rather 6.2-6.3 (to use DOD categories). There are 
exceptions, however. Some of the cyberforensics efforts will be 6.1 in 
nature, as will our efforts in the social sciences (such as behavioral 
or autonomic indicators of hostile intent, or efforts to develop an 
understanding to peoples' reactions to threat warnings).
    Question. Presumably, universities and private sector industries 
will conduct much of this research. What proportion of total research 
funding will be provided to universities and what proportion will be 
provided to the private sector?
    Answer. At this time, no requests for proposals for the work have 
been issued or proposals received. We will award funds based on 
technical merits, responsiveness to program needs, schedule and cost 
realism, and other metrics as appropriate. However, some funds will be 
applied to university centers of excellence, and to graduate and 
postdoctoral research efforts in support of homeland security. The 
President's budget request includes $10 million for these latter 
activities.
    Question. In your testimony you mentioned that you are requesting 
``$10 million to support strategic partnerships with the academic 
community to provide support for qualified students and faculty.'' I 
believe other Federal agencies that fund research also fund graduate 
fellowship or traineeship programs. Will the Department, or more 
specifically, the Science and Technology Directorate, fund graduate 
fellowships or traineeships? If so, would you please describe in 
general terms how that funding program will operate?
    Answer. The S&T Directorate is committed to building a cadre of 
dedicated scientists and engineers who will pursue careers in homeland 
security related disciplines and who will, in turn, encourage the next 
generation of experts to follow in their footsteps. To that end, we are 
working with national organizations such as the American Association of 
Universities, American Association for the Advancement of Science, the 
National Academy of Sciences, and the National Science Foundation to 
develop mechanisms that maximize our ability to tap the wealth of 
talent at the nation's universities and colleges to pursue disciplines 
related to the diverse portfolio of homeland security programs. A key 
element of this effort will be the establishment of the Homeland 
Security Scholarship and Fellowship Program. Our goal is to make this a 
premier program--on par with those of NIH, NRC, NASA and others--that 
encourages outstanding students and faculty to work in homeland 
security related fields. The key to making this program a success will 
be the engagement of university and college faculty and administration 
throughout the process. In fiscal year 2004 we will model the execution 
of this program on the fellowship/scholarship programs sponsored by the 
National Science Foundation.
                                 ______
                                 

             Questions Submitted by Senator Richard Shelby

    Question. What is the Directorate doing to develop a national 
structure for science and technology analysis and development?
    Answer. Section 302(2) of the Homeland Security Act requires the 
development of a national strategy and policy for homeland security 
research, development, test and evaluation (RDT&E). In fiscal year 
2003, DHS S&T is committing $10 million to develop this strategy, which 
includes efforts to catalog Federal efforts in this area, and, working 
with the Information Analysis and Infrastructure Protection 
Directorate, conducting threat analysis and vulnerability assessments 
to assist in prioritizing the national effort.
    Question. Alabama, and specifically the Huntsville metropolitan 
area, offer a unique opportunity for the Department of Homeland 
Security's Science and Technology Directorate. The Huntsville area 
maintains one of the highest, if not the highest, number of PhD's per 
capita in the nation. These individuals' immeasurable expertise in 
areas unique to the Homeland Security and Defense industries is too 
great a resource to leave untapped by the Department. I would encourage 
you to consider the Huntsville area when you continue to discuss the 
framework of the Science and Technology Directorate. To that end, what 
is the Directorate doing to take advantage of this great source of 
information, analysis, and invention?
    Answer. DHS S&T is well aware of the technical and scientific 
capabilities resident in the Huntsville area, which includes many 
significant Federal systems engineering and scientific facilities such 
as NASA, SMDC, MICOM, as well as a significant and highly capable 
contractor base. DHS S&T will avail itself of the entire National RDT&E 
enterprise, including as appropriate the significant capabilities 
resident in Huntsville, Alabama. Dr. McQueary visits the Huntsville 
area on May 12, 2003, as a result of their invitation.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

                   CRITICAL INFRASTRUCTURE PROTECTION

    Question. I have worked with the Department of Energy for some 
time, on programs to secure the nation's critical infrastructure from 
attack. I have worked to provide funding in Energy and Water for the 
establishment of a Critical Infrastructure Protection Test Range at the 
Idaho National Engineering and Environmental Laboratory. I think it is 
essential to actually put these systems under mock attack and see if 
the protection technologies work. Much effort is being expended to 
develop extensive models of our critical infrastructures and their 
interdependencies. There is no question that protection of our critical 
infrastructures is a vital priority for our nation. However, I have 
concerns that huge sums are being invested in computer models without 
having adequate data to support them. Idaho's lab provides a unique 
capability to do this, because it is a remote, 900 square mile Federal 
installation with its own electrical, communications and water systems. 
Almost like a virtual city, it has everything from its own traffic 
lights to its own nuclear reactors. Given my work on this issue, 
however, I would suggest to you that your requested budget for critical 
infrastructure protection--$5 million out of a budget of $803 million--
is inadequate. This isn't sufficient to develop technologies, much less 
test them. I will be looking closely at your plans in this area.
    Please explain the requested level of your budget given our 
security needs in this area.
    Answer The S&T Directorate has actually budgeted a total of $15 
million for Critical Infrastructure Protection for fiscal year 2004. In 
addition, there will be several technology programs in the Critical 
Infrastructure Protection area supported by the Information Analysis 
and Infrastructure Protection Directorate which is DHS' lead component 
for critical infrastructure protection, and with which S&T's activities 
are coordinated. There is a need for data for model validation and 
experimental verification of all computer models, simulations, and 
analyses. We have met with the staff of the Idaho National Engineering 
and Environmental Laboratory and they are working with us to develop 
Critical Infrastructure Protection R&D programs.

                          RADIOLOGICAL ATTACK

    Question. Much of the work of countering the threat of radiological 
attack resides in detecting these materials before they are brought 
into an area and detonated. Department of Energy national laboratories 
have been doing work on this issue for years. Through their work on 
nuclear fuel cycles, DOE labs such as Argonne, have a lot of expertise 
in detecting and measuring radiological events. I would not want to see 
this work duplicated elsewhere.
    Could you provide for the record any plans you have for conducting 
research on detection and intervention capabilities along these lines 
at the national laboratories?
    Answer. Detecting materials that might be used in a radiological 
attack requires understanding the potential threats and how specific 
technologies and systems of multiple technologies can impact these 
threats. Research and development in systems integration and systems 
analysis will provide an effective, integrated system architecture and 
the capability for regularly assessing and rapidly optimizing the 
nuclear countermeasure system. Development of needed detection 
technologies and countermeasure systems will build on the previous 
efforts of the national laboratories. Detecting radiological and 
nuclear threats before they become dangerous requires new capabilities 
for new operational deployment strategies. These new technologies and 
systems will augment the currently available capabilities (commercially 
or from government and academic laboratories) that can be employed 
today in the nuclear countermeasure system.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

               UNDER SECRETARY FOR SCIENCE AND TECHNOLOGY

    Question. For each portfolio and activity described in the 
congressional budget justification, please provide a detailed 
description of the programs and initiatives being funded in your base 
budget as well as the request for fiscal year 2004, including the cost 
associated with each.
    Answer. See table below. For the fiscal year 2003 base, which 
reflects activities transferred to the Department in Public Law 107-
296, a reprogramming letter has been submitted to the House and Senate 
Appropriations Committees.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. Provide the number of FTE associated with each portfolio 
and activity described in your fiscal year 2004 budget justification.
    Answer. See table below:

------------------------------------------------------------------------
                                            Fiscal Year
                                              Request           FTE
------------------------------------------------------------------------
Biodefense..............................            $365              63
Nuc/Rad.................................             137              22
Chemical Countermeasures................              55              10
High Explosives.........................              10               2
Threat and Vulnerability Testing and                  90              16
 Assessment.............................
Standards/State & Local Programs........              25               4
Rapid Prototyping.......................              30               5
Emerging Threats........................              22               4
Critical Infrastructure Protection......               5               2
Support to DHS Components...............              55              10
HS Fellowship Programs/Univ Programs....              10               2
                                         -------------------------------
      TOTALS............................             804         \1\ 140
------------------------------------------------------------------------
\1\ Excludes 40 FTE's associated with the Directorate's management and
  61 FTE's for the Environmental Measurements Laboratory.
Note: Numbers rounded to nearest thousand.

    Question. For each office on the ``S&T Organizational Chart'' 
provided to the Subcommittee provide a budget estimate and associated 
FTE's for fiscal year 2003 and fiscal year 2004.
    Answer. The Directorate will have 79 FTEs associated with the 
Office of the Under Secretary; the Office of Plans, Programs and 
Budget; the Office of Research and Development; and HSARPA. The 
estimated salary cost of fiscal year 2003 FTE's is approximately $8.5 
million. The S&T Directorate plans to have a staffing level for fiscal 
year 2004 of approximately 180 FTEs plus 61 FTE for the Environmental 
Measurements Laboratory (EML). The estimated salary cost of these FTEs 
is approximately $22 million to $27 million.
    Question. On page 25 of your budget justification, no funding is 
provided for ``Adjustments Necessary to Maintain Current Levels.'' Does 
the fiscal year 2004 budget account for the President's proposal for 
pay or any other economic assumptions? Provide an explanation of why 
``Adjustments to Maintain Current Levels'' are not included in your 
fiscal year 2004 budget estimates.
    Answer. Yes, the budget accounts for the President's pay and 
economic assumptions. These amounts are included in the budget numbers 
in fiscal year 2004 but not specifically broken out in Adjustments to 
Maintain Current Levels. Because most of the Science and Technology 
fiscal year 2004 activities are new or significantly increased, the 
portfolio-by-portfolio estimates were developed assuming that increases 
for pay and other economic assumptions would be accounted for within 
the overall portfolio growth.
    Question. Pursuant to Public Law 107-296, provide a detailed list 
of the functions transferred from other agencies to the Science & 
Technology Directorate, including personnel (FTE) transferred, physical 
infrastructure (if any), and associated funding with each function 
transferred.
    Answer. The Environmental Measurements Laboratory, Department of 
Energy, with an authorized 61 FTE's and 53 existing personnel 
transferred to the S&T Directorate. Six FTE's as well as the six 
incumbents of the National Nuclear Security Administration (NNSA), 
Department of Energy, also transferred to the Directorate.

----------------------------------------------------------------------------------------------------------------
               Transferred From                        Program Description         FTEs   Personnel    Funding
----------------------------------------------------------------------------------------------------------------
Energy........................................  Chemical Biological National           4          4  $48,005,527
                                                 Program.
                                                Nuclear Smuggling...............  ......  .........  ...........
                                                Nuclear Assessment Program......       2          2    5,584,000
                                                Biological and Environmental      ......  .........   20,000,000
                                                 Research.
                                                Advanced Scientific Computing R   ......  .........    3,068,000
                                                 & D.
                                                Environmental Measurements            61         53    3,048,287
                                                 Laboratory.
Agriculture...................................  Plum Island Animal Disease        ......  .........      ( \1\ )
                                                 Center.
Defense.......................................  Biological Research and Defense   ......  .........  420,000,000
                                                 programmatic activities.
----------------------------------------------------------------------------------------------------------------
\1\ Determination Order has not been finalized, since Plum Island Animal Disease Center transfers 6/03 to DHS.

    Question. What is your current on-board staffing level? What is 
your estimated staffing level for the end of fiscal year 2003? To 
better understand the makeup of the Science and Technology 
Directorate's workforce, provide a list of all positions by grade and 
job title or job classification.
    Answer. As of April 22, 2003, the entire S&T Directorate has 92 
personnel working. Thirty-seven are in the immediate Office of the 
Under Secretary; the Office of Plans, Programs, and Budget; and the 
Office of Research and Development. Two are in HSARPA. Fifty-three are 
at the Environmental Measurements Laboratory (EML) in NYC. The 92 
personnel consist of permanently assigned employees, employees detailed 
from within and outside DHS, Intergovernmental Personnel Act (IPA) 
assignments, and contractor support from the National Laboratories. The 
Directorate anticipates filling its 79 authorized FTE's, not including 
the 61 authorized the EML, by the end of fiscal year 2003. The 
Directorate may not be able to fill the 8 vacant FTE's at EML until the 
funding issue is resolved. Funding was transferred from DOE to cover 
only the 53 filled positions.
    The Directorate is currently writing position descriptions and 
having them classified. At this point, we are unable to provide a list 
by title, series and grade. Most of the positions will be classified as 
GS-13, 14, 15, ST, and SES and will be in the engineering (800) and 
sciences (400, 600, and 1300) series. Supporting positions will be 
primarily administrative, analytical, and program management at the GS-
7 through 15 in the 301, 340, 343, and 1515 series.
    Question. Provide the number of employees detailed from other 
agencies that are currently working for the Science and Technology 
Directorate.
    Answer. As of April 22, 2003, the Directorate had a total of seven 
personnel on detail from outside the Department
    Question. Provide a list (if any) of contracts entered into with 
federally funded research and development centers in fiscal year 2003, 
including the name of the research center and the amount of the 
contract.
    Answer. No contract has been entered into at this time in fiscal 
year 2003 with any FFRDC. DHS (S&T) is planning on contracting in the 
near term with the MITRE Corp to provide studies and analyses in 
support of our system engineering mission, for a sum of $1.2 million.
    Question. When will the Homeland Security Advanced Research 
Projects Agency (HSARPA) be established? How many employees will be 
employed at the HSARPA?
    Answer. HSARPA was established by Public Law 107-206, November 
2002, and will be operational no later than June 1, 2003. At that time 
it will have few dedicated staff, and will be operated by personnel 
from S&T headquarters in a ``dual-hatted'' mode. HSARPA will be staffed 
with new personnel. Currently planned FTE count is 56 at the end of 
fiscal year 2004. This number may change as program requirements and 
workload are analyzed in more detail.
    Question. Provide a list of all ongoing R&D activities, by agency 
and funding amounts, within the Department of Homeland Security.
    Answer. Outside of the S&T directorate, the following R&D 
activities are underway in the Department of Homeland Security:
  --The Transportation Security Administration (TSA) request includes 
        $75.2 million for research through TSA's Technology Center.
  --The Coast Guard request includes $22 million in fiscal year 2004 
        for research and development projects in areas such as 
        contraband detection, vessel stopping, Command Center Concept 
        Exploration, and Intelligent Waterways Research.
  --The Information Analysis and Information Protection (IAIP) 
        Directorate request includes $5 million in fiscal year 2004 for 
        cybersecurity research projects conducted by the National 
        Communications System.
    Question. Describe efforts underway to coordinate and integrate all 
research, development, demonstration, testing, and evaluation 
activities of the Department of Homeland Security.
    Answer. The S&T Directorate is working very closely with the other 
operational directorates in DHS to coordinate and integrate the RDT&E 
portfolio of the Department. To that end, all the S&T Portfolio 
managers also serve as liaisons to one of the operational organizations 
(e.g., BTS, IAIP, EP&R, USCG, USSS) with many of these staff being 
matrixed from their home organizations. The S&T budget directly 
reflects requirements identified by these end-users. In addition, the 
S&T Directorate has assumed government oversight for the Federal 
laboratories that transferred into the Department in fiscal year 2003. 
The S&T Directorate has an Office of Federal Laboratories that is 
responsible for ensuring that these facilities and programs are 
integrated into the overall RDT&E enduring capability of the 
Department.
    Question. Provide a list of Research & Development contracts the 
Science & Technology Directorate has entered into in fiscal year 2003 
and those planned for fiscal year 2004. For fiscal year 2003, the list 
should include the amount for each contract and the entity receiving 
the contract.
    Answer. The S&T Directorate has not yet entered into any new R&D 
contracts in fiscal year 2003. The S&T Directorate has assumed 
responsibility for direction and guidance for those programs 
transferred from other agencies to the S&T Directorate, including their 
existing R&D contracts. We will provide additional information on the 
scope and nature of those transferred programs upon request.
    The S&T Directorate has not yet determined the R&D contracts needed 
for fiscal year 2004 as these will be based on the final fiscal year 
2004 program plans and user requirements to meet the DHS mission.
    Question. For the Homeland Security Institute and the Homeland 
Security Science and Technology Advisory Committee, provide a timeline 
for the establishment of each organization, including progress to date 
and associated costs.
    Answer. The Homeland Security Science and Technology Advisory 
Committee will be established before the end of fiscal year 2003. The 
Homeland Security Institute will also be established before the end of 
fiscal year 2003. For the latter, a draft Request for Proposal (RFP) 
has been created, in consultation with Department of Defense FFRDC 
management.
    Question. Provide a summary of the Homeland Security Institute and 
the Homeland Advisory Committee's roles and responsibilities in 
furthering the development of homeland security science and technology.
    Answer. The Homeland S&T Advisory Committee will operate as a board 
of directors for the Directorate, in terms of providing strategic 
advice, management advice, and undertaking focused studies and projects 
as needed. The Homeland Security Institute will provide analytic 
support of unquestioned objectivity in such areas as threat and 
vulnerability assessments, technical assessments, cost analyses, 
systems analyses, test and evaluation criteria, and actuarial analyses.
    Question. Provide a list of cities where the Biological Warning and 
Incident Characterization System (BWIC) has been deployed, including 
plans for future deployment.
    Answer. The first phase of BWIC is known as BioWatch. The BioWatch 
deployment is more extensive than originally planned because of the war 
in Iraq and the associated heightened alert status. As a result, 
BioWatch is currently collecting data in 26 of the most populated 
cities. These cities are: New York, Los Angeles, Chicago, Houston, 
Philadelphia, Phoenix, San Francisco, Dallas-Ft. Worth, Boston, 
Detroit, Atlanta, Miami, Minneapolis-St. Paul, Cleveland, San Diego, 
St. Louis, Denver, Tampa, Washington D.C., Baltimore, San Antonio, 
Austin, Columbus, and Milwaukee. Please treat this list as For Official 
Use Only since revelation as to which cities do or do not have BioWatch 
might influence subsequent terrorist activity.
    If the current decreased alert status continues, it is our intent 
to scale back at the end of fiscal year 2003 the number of BioWatch 
cities to a subset of those highest on the threat list and to work with 
the Environmental Protection Agency (EPA) and the Centers for Disease 
Control and Prevention (CDC) to seek transition funding for these. In 
fiscal year 2004, we will field a pilot of the next generation wide 
area detection system in one of these cities. That system will support 
50 samples per day at the same operational cost as the existing 
BioWatch system which handles 10-12 samples per day. Local public 
health officials have identified this increased sampling as a critical 
step toward improved consequence management. Concurrently, we will be 
conducting R&D on advanced detectors which should enable us to upgrade 
BioWatch by replacing the air filters, which are currently collected 
manually and then brought to a central analysis lab, with distributed 
detectors that do the analysis at the point of collection and within an 
hour--thereby greatly reducing the warning time without increasing the 
operational costs.
    Question. Your fiscal year 2003 reprogramming request, received on 
April 9, 2003, makes reference to the Biowatch program. What is the 
difference between the BWIC and Biowatch programs?
    Answer. BioWatch is the first phase of an enhanced capability 
within the BioWarning and Incident Characterization System (BWIC). 
Deployed in response to the heighten tensions surrounding the Iraq 
conflict, BioWatch provides for early detection of possible aerosolized 
release of key agents in many of our cities and metropolitan areas. It 
does so by deploying aerosol collectors at existing EPA sites in and 
around these cities, then collecting the filters from these collectors 
every 24 hours and taking them to the nearest CDC Laboratory Response 
Network (LRN) lab for analysis. As noted in the answer to S&T-S52 
above, the plan is to upgrade this capability in the future to provide 
increased spatial and temporal sampling while maintaining or reducing 
the operational costs associated with the current BioWatch pilot.
    This upgraded environmental portion is one of three critical arms 
of BWIC. The second key arm of BWIC is an integrated biosurveillance 
system. Integrated biosurveillance will augment traditional clinical 
surveillance with less traditional surveillance techniques such as 
syndromic surveillance, advice nurse calls, over the counter drug sales 
and veterinary reports in the desire to provide a still earlier 
indication of potential exposure to a pathogen. We are currently 
working with CDC to define the key elements of such an integrated 
surveillance system. The third key arm of BWIC is to integrate the 
information from both the environmental monitoring (BioWatch) and 
biosurveillance systems with appropriate consequence managements tools 
(e.g. plume hazard prediction models and epidemiological models) to 
provide the incident commanders with the best possible estimate of the 
extent of the event so as to better guide the response. The integrated 
combination of these three elements--environmental monitoring, 
biosurveillance, and their integration into consequence management 
tools--comprises the BWIC system.
    Question. For the $91 million included in the Lands and Structures 
Object Classification line, please provide a detailed description of 
the project or projects planned with this funding, the amount for the 
project or projects previously appropriated, and the total amount 
necessary to complete the project or projects, the total amount 
currently authorized (if any), and whether additional authorization is 
required for the project or projects planned with this funding.
    Answer. The National Biodefense Analysis and Countermeasures 
Centers (NBACC) is to be established on a hub and spoke model with the 
NBACC hub--high security, biocontainment facilities--located at Fort 
Detrick, Maryland. The NBACC spoke facilities are partnering Federal 
laboratories as well as contract public and private sector specialty 
labs. Existing national biocontainment laboratory infrastructure, 
especially with the capability for safe, effective and controlled 
generation of biothreat agent aerosols within biocontainment 
laboratories, is insufficient to meet NBACC program needs. This was 
demonstrated by conducting a publicly advertised, sources sought, 
market survey in April 2002, and by examination of others' construction 
plans. The NBACC is comprised of four centers: (1) Bioforensics 
Analysis Center for unassailable analysis to support attribution of the 
use of biothreat agents (BTA) by criminals, state and non-state actors; 
(2) Bio-Countermeasures Test and Evaluation Center for validated 
countermeasure testing against BTA aerosol lab challenge; (3) 
Biodefense Knowledge Center to provide relevant training, data 
integration, analysis, and information dissemination while exploiting 
artificial intelligence technologies; and (4) Biothreat Assessment 
Support Center for laboratory studies of potential BTA and 
countermeasure efficacy to provide the essential scientific basis for a 
BTA net assessment and prioritization. The fiscal year 2003 
appropriation supporting the NBACC contained $5 million for facility 
planning analysis and design; these studies are presently incomplete. 
Additionally, the NBACC is being planned and coordinated as a component 
of the biocontainment laboratory infrastructure on the Fort Detrick 
BioDefense Campus. Participants include the Department of Defense and 
other Federal departments having operations at Fort Detrick. Since 
plans are presently incomplete, the full scope of NBACC facility 
requirements-individually and as shared infrastructure-and the detailed 
costs and schedules to complete these construction projects is not yet 
available. Existing authorization for these efforts is sufficient.
    Question. Will there be a National headquarters laboratory within 
the Science & Technology Directorate? If so, where?
    Answer. In accordance with the Homeland Security Act, the S&T 
Directorate has established an Office of National Laboratories. This 
office has the ability to access the expertise of all of the existing 
national laboratories through a Memorandum of Agreement signed by the 
Secretary of Homeland Security and the Secretary of Energy in February 
2003. DHS does not intend to establish a headquarters laboratory, but 
rather, it will sponsor homeland security programs at a variety of 
sites that leverage the vast talent of the national laboratory complex. 
The national laboratories are crucial elements of the enduring 
scientific and technical capability that DHS needs to execute its 
mission in the long term.
    Question. Describe the role the Science & Technology Directorate 
has played (if any) in responding to the Sudden Acute Respiratory 
Syndrome (SARS).
    Answer. S&T is monitoring the SARS outbreak closely with other 
Federal and State public health officials. The S&T Directorate has not 
funded any activities associated with SARS that normally fall under the 
jurisdiction of HHS, CDC and the Public Health Service.
    Question. Your budget shows a $30 million increase in equipment 
costs in fiscal year 2003 and then a decrease of $30 million in fiscal 
year 2004. Why was there such a large increase for equipment costs in 
fiscal year 2003?
    Answer. The $30 million is for equipment associated with the Bio-
Watch system that will be purchased and deployed in the fiscal year 
2003.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

               UNDER SECRETARY FOR SCIENCE AND TECHNOLOGY

    Question. In your written testimony you state, a key part of our 
efforts will be conducted through the Homeland Security Advanced 
Research Projects Agency. It is my understanding that this agency will 
be modeled after DARPA, a program I have seen first-hand meet with 
great success. Your fiscal year 2004 budget request assumes that 
approximately $350 million will be used for this purpose. Could you 
please provide us with an update on the creation of that Agency and an 
estimated timetable for solicitation of the first round of grants?
    Answer. HSARPA will be operational no later than June 1, 2003. At 
that time it will have few dedicated staff, and will be operated by 
personnel from S&T headquarters in a ``dual-hatted'' mode. However, it 
is anticipated that several Broad Agency Announcements that cut across 
the portfolios within the Directorate will be issued soon afterwards.
    Question. I support the Directorate's Homeland Security Fellowship 
Program as an effort to support university-level study of science and 
technology. It is anticipated that this will help meet our country's 
need for qualified applicants for security related research and 
development positions. However, enrollment of U.S. citizens in graduate 
science and engineering programs has not kept pace with that of foreign 
students. I understand that this program would provide support to 
students and faculty, but I believe we need to work to encourage 
students to enter these fields, not only support those who choose these 
fields. How would the fellowship program work to entice U.S. citizens 
to enter into these fields?
    Answer. The S&T Directorate is committed to building a cadre of 
dedicated scientists and engineers in the United States who will pursue 
careers in homeland security related disciplines and who will, in turn, 
encourage the next generation of experts to follow in their footsteps. 
A key element of this effort is the establishment of the Homeland 
Security Scholarship and Fellowship Program. Our goal is to make this a 
premier program--on par with those of NIH, NRC, NASA and others--that 
encourages outstanding students and faculty who are U.S. citizens to 
work in homeland security related fields. The key to making this 
program a success will be the engagement of university and college 
faculty and administration throughout the process.
    Question. Your Directorate will develop standards for State and 
local homeland security infrastructure equipment. Do you anticipate 
that these standards will be guidelines and suggestions, or do you 
anticipate that our State and local entities will be required to 
purchase equipment and implement training programs in compliance with 
the standards your Directorate develops? If these standards will be 
mandatory, what financial assistance will the Department provide for 
the purchase of compliant equipment?
    Answer. In accordance with OMB Circular-119, the standards 
developed and used by DHS for homeland security equipment will 
primarily be voluntary consensus standards. As such, these equipment 
standards will function as guidelines that set minimum performance 
specifications to ensure that the equipment will have basic 
functionality, will be adequate for the task for which it is intended, 
and demonstrates a basic level of efficiency, interoperability, and 
sustainability. In general, specific equipment purchases will not be 
mandated by DHS. However, we anticipate that the existing grant 
programs will tie allowable purchases to equipment that has been shown 
to meet an accepted DHS standard. In addition, if equipment standards 
are established or mandated as part of a National Incident Management 
System, then failure to adopt those standards will, per Homeland 
Security Presidential Directive #5, render a jurisdiction ineligible 
for any preparedness-related grant or contract funding, not just 
equipment-related grants. Our plan is to ensure that training programs 
providing proficiency on equipment that meets standards will also be 
covered to some extent by the existing USG funding programs. There is 
great interest from the State and local emergency response community in 
having the standards needed to make intelligent and potentially life 
saving decisions when it comes to equipment purchase. Therefore, 
providing these standards is a very important component of our mission.
    HR5005 invests the Secretary with regulatory authority. There may 
be some very specialized cases where issues of human health and safety 
dictate promulgation of regulations. Those special cases where specific 
types of equipment are made mandatory will likely be considered 
separately in terms of government funding that would be made available 
for deployment.

                          SUBCOMMITTEE RECESS

    Senator Cochran. This concludes our hearing today.
    We will continue to review the fiscal year 2004 budget 
request for the Department of Homeland Security on Wednesday, 
April 30, at 10 a.m. in room 106 of the Dirksen Senate Office 
Building. Our witness at that time will be the Secretary of 
Homeland Security, Tom Ridge.
    The subcommittee stands in recess.
    [Whereupon, at 2:54 p.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 30.]

</pre></body></html>
